<html>
<title> - CONFRONTING THE FULL RANGE OF IRANIAN THREATS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


            CONFRONTING THE FULL RANGE OF IRANIAN THREATS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 11, 2017

                               __________

                           Serial No. 115-80

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                     U.S. GOVERNMENT PUBLISHING OFFICE                    
27-160 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ec8b9c83ac8f999f988489809cc28f8381">[email&#160;protected]</a>                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable James F. Jeffrey, Philip Solondz distinguished 
  visiting fellow, The Washington Institute for Near East Policy 
  (Former U.S. Ambassador to Iraq, Turkey, and Albania)..........     5
General Charles F. Wald, USAF, Retired, distinguished fellow and 
  co-chair, The Gemunder Center Iran Task Force, The Jewish 
  Institute for National Security of America (Former Deputy 
  Commander, U.S. European Command)..............................    13
Mr. David Albright, founder and president, Institute for Science 
  and International Security.....................................    19
Mr. Jake Sullivan, senior fellow, Geoeconomics and Strategy 
  Program, Carnegie Endowment for International Peace (Former 
  National Security Adviser to the Vice President; Former 
  Director of Policy Planning, U.S. Department of State).........    26

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable James F. Jeffrey: Prepared statement...............     7
General Charles F. Wald, USAF, Retired: Prepared statement.......    15
Mr. David Albright: Prepared statement...........................    21
Mr. Jake Sullivan: Prepared statement............................    28

                                APPENDIX

Hearing notice...................................................    74
Hearing minutes..................................................    75
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    77
Written response from Mr. Jake Sullivan to question submitted for 
  the record by the Honorable Dina Titus, a Representative in 
  Congress from the State of Nevada..............................    79
Written responses from the Honorable James F. Jeffrey, Mr. David 
  Albright, and Mr. Jake Sullivan to questions submitted for the 
  record by the Honorable Bradley S. Schneider, a Representative 
  in Congress from the State of Illinois.........................    80

 
             CONFRONTING THE FULL RANGE OF IRANIAN THREATS

                              ----------                              


                      WEDNESDAY, OCTOBER 11, 2017

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:12 a.m. in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order. We will 
ask all members to take their seats at this time.
    And today we consider how the United States should confront 
the full range of threats that Iran poses to our national 
security and poses to the security of our regional allies and 
partners. And I will give you my view of this.
    I believe that President Obama's flawed nuclear deal was a 
gamble that Iran would choose to become a responsible actor, a 
country focused on prosperity for its people and security along 
its borders. And unfortunately, and predictably, the Tehran 
regime clearly sees itself as a movement, one that uses 
ideology and violence to destabilize its neighbors, to threaten 
others, mainly the United States and Israel. That is why we 
still hear ``death to Israel,'' ``death to the United States,'' 
``Israel is a one-bomb country.'' That is why we hear this.
    In Iraq and Syria, Iran's Revolutionary Guards have taken 
advantage of the fight against ISIS, and they are using their 
shock troops and Shia militia to brutalize Syrians and to seize 
much of the territory. As ISIS loses ground, the risk is real 
that one version of radical Islamist terror, ISIS, is simply 
replaced by another.
    Meanwhile, Hezbollah, ascendent in Lebanon, has thousands 
of fighters in Syria. It is well positioning itself to 
intensify its original mission: The destruction of Israel. This 
terrorist organization is building a deadly rocket arsenal 
ready to rain terror on the Jewish state. I was in Israel 
during the 2006 Hezbollah rocket campaign. Its capabilities 
then, quite substantial, are far more concerning today. This is 
a powder keg.
    This makes it all the more critical that we stop Iran from 
completing a ``land bridge'' from Iran to Iraq to Syria to 
Lebanon. This would be an unacceptable risk and, frankly, a 
strategic defeat. It is not just Israel's security on the line. 
I feel that if Iran secures this transit route, it will mark 
the end of the decades-long U.S. effort to support an 
independent Lebanon. Jordan's security, too, would be 
imperiled.
    This threat grows infinitely worse if Iran develops a 
nuclear weapons capability. In this regard, Iran's continued 
pursuit of intercontinental ballistic missiles funded by the 
cash bonanza it received when sanctions were lifted, is 
telling. No country has run such an expensive program without 
also seeking nuclear warheads to go on top. These missiles are 
designed to hit us.
    While the nuclear deal may have constrained Iran's ability 
to produce fissile material, these restrictions begin to sunset 
in less than a decade, leaving Iran with an industrial 
enrichment capability. The reluctance of international 
inspectors today to demand access to military bases means that 
we don't know to what extent Iran is engaged in the complex--
but more easily hidden--work of designing a nuclear warhead.
    And that is why clear majorities on this committee and in 
the House opposed the nuclear deal. Ultimately, however, the 
Obama administration rammed it through anyway. And as a result, 
roughly $100 billion was handed over to Iran. Much of this is 
now in the hands of the Iranian Revolutionary Guard Corps--an 
incredible amount of leverage lost.
    As flawed as the deal is, I believe we must now enforce the 
hell out of it. Let's work with allies to make certain that 
international inspectors have better access to possible nuclear 
sites, and we should address the fundamental sunset 
shortcoming, as our allies have recognized. This committee will 
do its part tomorrow by marking up the Ballistic Missiles and 
International Sanctions Enforcement Act.
    We must also respond to Iran's efforts to destabilize the 
region. This includes using our allies in Europe to designate 
Hezbollah in its entirety as a terrorist organization and 
providing the administration with additional tools to go after 
this Iranian proxy, as we voted to do this last week in this 
committee.
    Finally, we should be supporting the Iranian people who 
want a better life, who want more freedom, instead of suffering 
under the brutal repression of an ideologically inspired, 
hateful regime. We have no ill will toward the Iranian people. 
It is their government that gravely threatens us and threatens 
our allies. This is the approach that I believe the United 
States must take for our national security.
    Later this week, the President will make a legislatively 
mandated decision on certification of the nuclear deal. 
Whatever he decides, it is critical that the President lay out 
the facts. He should explain what his decision means. He should 
explain what it doesn't mean. And then I hope, as I have tried 
to do here today, the President will define a responsible path 
forward to confront the full range of threats posed by Iran.
    I now will go to the ranking member for his remarks.
    Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman, and thank you for 
calling this hearing.
    To our witnesses, welcome to the Foreign Affairs Committee. 
Thank you all for your history of service to our country. It is 
very much appreciated.
    There is no doubt whatsoever that Iran poses a grave threat 
to security in its neighborhood and around the globe. In Iran, 
we find the world's number one state sponsor of terrorism, a 
government developing illegal and dangerous ballistic missiles 
that could deliver a devastating weapon, a critical lifeline to 
the barbarous Assad dynasty in Syria, and a regime that flouts 
international human rights norms, brutally suppresses its own 
people, and unlawfully detains foreign citizens, including 
Americans.
    How to grapple with this challenge is one of the most 
important questions for our foreign policy and for us as 
lawmakers.
    I have long advocated tougher sanctions that go after 
Iran's harmful activities. Earlier this year, with the 
chairman's support, we passed into law new sanctions on Iran's 
destabilizing activities, including its ballistic missile 
program, its support for terrorism, and its conventional arms 
transfers.
    This week especially, we cannot talk about how to deal with 
Iran without talking about the nuclear deal, whether staying in 
the deal will make it easier or harder to meet this challenge. 
I opposed the deal. I voted against the deal.
    Mr. Sullivan, I say this with respect and gratitude for 
your hard work to bring Iran to the negotiating table, but I 
felt the sunset provisions left too short a time before Iran 
could become a legitimate nuclear power. I also felt that Iran, 
being the number one state sponsor of terrorism, would reap a 
windfall in money from this agreement and therefore could use 
it and would use it to carry out its terrorist activities to an 
even greater state than they have been in the past.
    But I was on the losing side of that debate. Since the deal 
was reached, like the chairman, I have called for it to be 
strictly enforced while we look for other ways to address the 
range of non-nuclear challenges coming out of Iran.
    So today the administration seems poised to take the first 
step in withdrawing from the JCPOA. I must say that I view that 
course as a grave mistake. We in the United States have to live 
up to our word. If we withdraw from the deal now, Iran would be 
free today from the constraints on their program and the 
intrusive inspections that the JCPOA puts into place. They 
could race headlong toward a nuclear bomb, hold all the 
benefits of sanctions relief, and continue fomenting 
instability across the region.
    We need to work with allies and partners on a shared agenda 
that holds the regime in Tehran accountable, not dividing 
America from our closest friends across the globe. If we pull 
out of the deal, I believe we lose whatever leverage we have to 
drive that agenda.
    At the same time, walking away from the JCPOA would 
announce to the world, to our friends and adversaries alike, 
that the United States cannot be counted on to keep its word.
    In North Korea, we are staring down a rogue regime that 
already has nuclear weapons. If we pull out of the Iran deal, 
we would lose all credibility as we try to negotiate with the 
regime in Pyongyang on nuclear disarmament.
    One of the arguments I have heard in the last week is that 
the administration should withhold certification but that we 
should stay in the deal anyway. I think that is trying to have 
it both ways. It doesn't work. I think it is a political cover 
for opponents of the deal who have been saying for years that 
we should withdraw and who are now having second thoughts. I 
think it is a distraction from the real issues involving Iran 
that demand our attention. And I think it is playing with fire.
    Failing to certify the deal is the first step toward ending 
it. That is how governments around the world will perceive it, 
possibly including Iran, which could spark a second nuclear 
crisis on top of North Korea.
    We need to be tough on Iran. We need tough sanctions and 
multilateral actions to make clear that the regime will face 
consequences for its dangerous activities. We need to reclaim 
the mantle of leadership, bring countries together, and hold 
Tehran accountable.
    Saying we are going to tear up the deal sounds like tough 
talk, but I believe it won't help us meet this challenge. It 
would merely hamper our ability to make progress, to get 
tougher in the areas where we can. It would be cutting off our 
nose to spite our face.
    So I hope the President heeds the advice of Secretary 
Mattis and others. I hope he understands the importance of the 
United States keeping its commitments. If we are serious about 
cracking down on Iran, the best path forward is to stick with 
the deal, despite what I view as its flaws, and hold Iran 
strictly to its obligations. That will put us in a far better 
position to address all the other problems Iran is stirring up.
    So I look forward to hearing from our witnesses on these 
questions.
    Thank you, again, Mr. Chairman. I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    This morning we are joined by a distinguished panel. We 
have Ambassador James Jeffrey with us. He is the Philip Solondz 
distinguished fellow at the Washington Institute for Near East 
Policy. Previously, the Ambassador served as U.S. Ambassador to 
Iraq, to Turkey, and to Albania.
    We have General Charles Wald. He is a distinguished fellow 
and co-chair of the Gemunder Center Iran Task Force at the 
Jewish Institute for National Security of America. Previously, 
General Wald served as the former Deputy Commander of the U.S. 
European Command.
    We have Mr. David Albright, founder and president of the 
nonprofit Institute for Science and International Security. Mr. 
Albright has written numerous assessments on nuclear weapons, 
secret nuclear weapon programs, throughout the world. And we 
appreciate him being with us as well.
    Mr. Jake Sullivan is a senior fellow at the Geoeconomics 
and Strategy Program at the Carnegie Endowment for 
International Peace. Previously, Mr. Sullivan served as a 
National Security Adviser to former Vice President Joe Biden 
and as the Director of Policy Planning at the U.S. Department 
of State.
    Without objection, the witnesses' full prepared statements 
will be made part of the record today, and members here will 
have 5 calendar days to submit any statements, questions, or 
extraneous material that they want to put into the record for 
today's hearing.
    So I would just ask Ambassador Jeffrey, if you would like 
to summarize your statement. And then after each of you have 
presented, we will have the questions from the members of the 
committee.

  STATEMENT OF THE HONORABLE JAMES F. JEFFREY, PHILIP SOLONDZ 
  DISTINGUISHED VISITING FELLOW, THE WASHINGTON INSTITUTE FOR 
 NEAR EAST POLICY (FORMER U.S. AMBASSADOR TO IRAQ, TURKEY, AND 
                            ALBANIA)

    Ambassador Jeffrey. Thank you, Mr. Chairman, Mr. Ranking 
Member, members of the committee, my distinguished colleagues 
here on the table. It is an honor to be here today to discuss 
something of such extraordinary importance just before the 
President will talk to the American people about Iran policy.
    Mr. Chairman, I agree with you that in certain circles, in 
Washington and elsewhere, there was a belief that this Iran 
deal could do more than constrain Iran's nuclear program. In 
fact, the preamble to the agreement expressed the hope, and I 
quote, that full implementation of this JCPOA, the agreement, 
will positively contribute to regional and international peace 
and security.
    Just last night I heard the EU Foreign Minister, who is 
basically the spokesperson of the P5+1, echo a very similar 
line back when she announced the agreement in 2015.
    And I think that is one of the core flaws of this 
agreement. And one of my arguments that I will make in a 
second, that we have to look at this agreement in more detail 
and where it fits, is that people think that if they are okay 
with the agreement, the Iranians are adhering to it, then we 
don't have a problem with them. We have many problems with them 
inside and outside the agreement.
    Right now the greatest danger facing the U.S. and its 
allies in the Middle East is Iran allied with various surrogate 
forces and to some degree Russia. The U.S., as yet, does not 
have a comprehensive policy to confront Iran that should 
include both containing Iran in the region and, as you both 
mentioned, looking at the JCPOA.
    The stakes here are high. If America does not stop the 
Iranians, they will soon emerge with their allies as a dominant 
force in the region.
    Such a policy, however, has to consider some key elements 
that any such policy needs to look at. I will give you my views 
on them. But more important than my views are that the 
administration and that this body look at each of these 
elements.
    First, Iran must be the first U.S. priority in the region, 
it must be number one, apart from terrorist attacks on the 
homeland. Specifically, we need to shift our attention and 
resources now from the almost-finished ISIS campaign to Iran. 
That is critical because right now the administration is still 
focused on ISIS.
    Second, we need to know what our basic purpose is in 
confronting Iran. Is it to push back on Iran's specific 
regional moves, or is it to affect significantly Iran's overall 
goals and role in the region, or is it regime change? There are 
voices on all three here in Washington.
    In view of the need for as broad as possible an 
international coalition, as both you, Mr. Royce, and you, Mr. 
Engel, noted, I think we should limit this to pushing back on 
Iran-specific actions, particularly military and paramilitary 
in the region. That will allow us the biggest and strongest 
coalition.
    Next, as we have discussed, the JCPOA cannot be sacrosanct 
in our approach. Given, however, the absence of an 
international consensus for a new better agreement and our need 
for such a broad coalition to contain Iran successfully, we 
should not abandon the agreement. Rather we should use our 
problems with it to push, at least diplomatically, for a 
potential new agreement, raise our problems with missiles, 
challenge the commitments we have made, I think foolishly, in 
the agreement to support Iran's economic development, and 
basically make it more difficult for businesses to work with 
Iran.
    The central fronts to contain Iran are Iraq and Syria. 
Iran's intent is to create, as you mentioned, Mr. Chairman, 
vassal states, as we have seen or are seeing in Lebanon, in 
that region. If it succeeds, it will threaten, again, as you 
have mentioned, Israel, Jordan, Turkey, and eventually the 
Gulf.
    But the U.S., focused on ISIS, appears to be leaving the 
day after in both Syria and Iraq to, in Syria, the Russians--I 
was just there for a week with them, and believe me, they don't 
want to and won't help us--and in Iraq, to the Abadi 
government.
    I know him and the people around him. They would like to 
help us. They are not strong enough without a strong American 
presence. That presence includes not only diplomacy and 
economic help, it includes a military presence on the ground in 
both countries over time, ostensibly to contain ISIS, but 
focused on Iran.
    Finally, we need to know: Do we talk to Iran? Do we need a 
diplomatic plan? Do we talk to Iran? Under which circumstances? 
How do we signal to it?
    Equally important, we need to reunify this alliance. The 
Saudis, the Turks, the Egyptians are going in all directions.
    Finally, to the members of the committee, as I and many 
others have experienced, if you push back on Iran, they will 
come at you. They will come at you real hard. We need to know 
what we will do in advance, and that includes potentially 
striking them in their homeland.
    [The prepared statement of Ambassador Jeffrey follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. General Wald.

     STATEMENT OF GENERAL CHARLES F. WALD, USAF, RETIRED, 
  DISTINGUISHED FELLOW AND CO-CHAIR, THE GEMUNDER CENTER IRAN 
   TASK FORCE, THE JEWISH INSTITUTE FOR NATIONAL SECURITY OF 
    AMERICA (FORMER DEPUTY COMMANDER, U.S. EUROPEAN COMMAND)

    General Wald. Thank you, Mr. Chairman, Ranking Member 
Engel, and members of the committee. Thank you again for the 
opportunity to appear before you today to discuss responses to 
the full range of threats posed by Iran.
    I have followed Iran closely throughout my career, 
including in my current capacity as the co-chair of the Iran 
Task Force at the JINSA Gemunder Center.
    This summer, our task force issued a report on the need to 
restore U.S. leverage to confront the full spectrum of Iran's 
menacing behaviors. Understandably, current debate is focused 
on the JCPOA and whether continued adherence to the deal serves 
our national interests.
    Our JINSA task force has been an outspoken critic of this 
agreement, which gives Tehran great financial, military, and 
geopolitical benefits while robbing the United States of our 
previous leverage against Iran.
    An effective strategy against Iran must prioritize 
restoring our lost leverage, and I applaud this committee's 
effort to examine the range of options available to us and our 
allies.
    This is urgent because the deal places Iran on a trajectory 
to become as intractable a challenge as North Korea is today 
and very possibly worse. Sanctions relief is bringing renewed 
foreign investment to Iran, and with it the capital and 
technology for increased spending on ballistic missiles and 
IRGC operations in places like Syria, Iraq, and Yemen.
    The deal also legalizes Iran's ambitious military buildup. 
U.N. Security Council Resolution 2231 gives Iran, and 
specifically the IRGC, a major opportunity to advance its 
nuclear-capable ballistic missile and intimidate our regional 
allies. That same resolution will lift the conventional arms 
embargo on Iran, allowing the IRGC to become an international 
arms dealer.
    The IRGC's ability to inflict heavy costs on our forces and 
possibly deny our access to the region will grow significantly 
as it augments its air defenses, attack craft, submarines, 
unmanned vehicles, mines, radars, and missiles.
    Finally, the U.N. resolution also eventually permits the 
IRGC to access highly advanced missile technology and materials 
from abroad. This will aid its development of a more 
sophisticated nuclear delivery vehicle, including intermediate 
range and intercontinental ballistic missiles capable of 
targeting the heart of Europe and the U.S. homeland.
    It is important to note that Tehran can push for ICBMs 
around the same time as it approaches nuclear weapons 
capability, effectively giving it a direct nuclear deterrent 
against the United States before the JCPOA ends.
    Already, Iran is moving more aggressively against us and 
our allies. Since day one of the deal, it has been testing more 
accurate and mobile multistage stage ballistic missiles with 
reentry vehicles that are harder to intercept and are better 
suited for nuclear warheads.
    Meanwhile, its proxy in Yemen uses IRGC assistance to lob 
dozens of ballistic missiles at Saudi bases and cities, not to 
mention targeting U.S. Navy ships. I was told yesterday that 
the Houthis in Yemen have shot 63 scuds in Saudi Arabia over 
the last days--which, by the way, because of the PAC-3 
missiles, the Saudi Arabians have been able to defend against, 
but it is growing.
    Overall, if Iran does not materially breach the JCPOA, the 
deal already is a boon to its dangerous ambitions and a 
strategic disaster for us. We need a coherent set of responses 
to reverse this untenable strategic imbalance before it 
continues from bad to worse.
    I applaud this committee for its tireless efforts to 
pressure Iran and Hezbollah through sanctions. Such measures 
are necessary, but their message and impact must be reinforced 
with military leverage.
    First, American officials should make clear they are 
preparing contingency plans to defend against further Iranian 
tests of nuclear-capable missiles. This must include 
unequivocal threats to shoot down future tests if necessary.
    Second, we must undertake concrete military preparations, 
including forward deploying part of Aegis-equipped missile 
defense fleet to the Persian Gulf. Congress should consider 
requiring the Pentagon adopt their use and other changes as 
part of the broader reassessment of U.S. force posture and 
contingency planning for the region.
    Third, we need a post-ISIS strategy and a force presence in 
Syria to prevent Iran from dictating the country's future and 
consolidating its land bridge.
    Fourth, we need to augment the new MOU on defense aid to 
Israel by removing artificial caps on missile defense, 
especially given Iran and Hezbollah's growing presence in the 
Israeli northern borders.
    And fifth, we need to work with Saudi Arabia and UAE on 
robust theater missile defense and potentially help transfer 
Israeli missile defense systems to the country.
    Finally, we need to ensure the interoperability of air and 
maritime defenses between the United States and Gulf allies to 
counter Iran's growing capability thanks to the nuclear deal.
    Regardless of the JCPOA's future, these measures will 
demonstrate resolve to roll back Iranian aggression and 
dissuade the regime from advancing toward nuclear weapons 
capability.
    I thank you, Mr. Chairman, for my time, and I look forward 
to the committee's questions.
    [The prepared statement of General Wald follows:]
    <
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you, General Wald.
    Mr. David Albright.

    STATEMENT OF MR. DAVID ALBRIGHT, FOUNDER AND PRESIDENT, 
        INSTITUTE FOR SCIENCE AND INTERNATIONAL SECURITY

    Mr. Albright. Thank you, Chairman Royce, Ranking Member 
Engel, and other esteemed members of this committee.
    We are 1 week away from the 2-year anniversary of Adoption 
Day, the day when the Iran nuclear deal came into effect. It is 
clear now that Iran is no South Africa, which should serve as a 
benchmark to evaluate any country giving up a nuclear weapons 
program coming into compliance with the Nuclear Non-
Proliferation Treaty and building a peaceful relationship with 
its neighbors.
    In contrast, Iran has only temporally frozen its most 
threatening nuclear weapons capabilities. It has maintained 
since Implementation Day, as a matter of policy, that it will 
not allow IAEA inspections of its military sites.
    Finally, Iran has continued its threats against U.S. 
national interests and has conducted a range of malign 
behaviors.
    Few believe anymore that Iran will change enough over the 
next several years that it will no longer seek nuclear weapons 
once the JCPOA nuclear limitations begin to sunset, the first 
nuclear sunset of notice 8 years after Adoption Day, or 6 years 
from now, when Iran can scale up advanced centrifuge 
manufacturing.
    But there are two non-nuclear sunsets that lend urgency to 
acting now. U.N. Security Council restrictions on arms-related 
transfers to and from Iran end in 3 years. Restrictions on any 
activity related to ballistic missiles designed to be capable 
of delivering nuclear weapons end in 6 years. And those dates 
could be moved up if the IAEA reaches what is called a broader 
conclusion and signs off on Iran's nuclear program.
    By the time the nuclear sunsets start to occur 6 years from 
now, Iran is expected to be conventionally armed to the teeth 
and poised to develop nuclear-capable missiles able to strike 
Europe and eventually the United States. By that time, it will 
have a powerful economy immunized against sanctions pressure.
    So waiting to undo these sunsets means waiting until the 
United States would face a well-armed, well-funded Iranian 
military on the cusp of putting nuclear weapons on long-range 
ballistic missiles. This future is not acceptable, and this 
dire future occurs by Iran simply following the letter of the 
nuclear deal and Resolution 2231.
    However, Iran has neither fully complied with the nuclear 
deal and Resolution 2231, nor fully implemented the nuclear 
deal. With regards to the nuclear deal, Iran has violated the 
deal on many occasions, exploited loopholes, pushed the 
envelope of allowed behavior, and avoided critical verification 
requirements.
    The Trump administration is committed to robust enforcement 
of the nuclear deal. So far this approach has reduced the 
number of violations, although it has not eliminated all of 
them.
    Then, of course, there are the ongoing, well-known problems 
of the IAEA gaining access to military sites. The Parchin issue 
remains unresolved, Section T remains unimplemented, which 
covers bans on nuclear weapons development, and the non-
implementation of Section T was recently confirmed by the 
Director General of the IAEA.
    Chairman Royce. Could you just clarify that in your 
testimony?
    Mr. Albright. I am sorry.
    Chairman Royce. Just repeat that and just clarify a little 
bit.
    Mr. Albright. Recently the Director General of the 
International Atomic Energy Agency confirmed that Section T 
remains unimplemented and has actually asked for guidance on 
how to treat this, because Russia opposes the inspectors 
visiting military sites.
    The justification and need to better enforce and fix the 
nuclear deal and associated agreements is clear. But what to 
do? We are all awaiting President Trump's decision regarding 
the 90-day certification under INARA and the administration's 
rollout of its Iran policy more generally.
    If the administration does decertify, I believe it would be 
fully justified under INARA criteria. Even setting aside what 
are called uncured material breach issues, which I agree are 
debatable, the President has a solid case to decertify based on 
another criterion, namely whether the suspension of sanctions 
remains vital to U.S. national security interests and 
proportionate to Iran's efforts to terminate its illicit 
nuclear programs.
    By decertifying, the President would send a powerful signal 
that the nuclear deal has a fundamentally flawed architecture 
which cannot be fixed by better enforcement alone.
    My colleague Mark Dubowitz and I have recommended a middle 
course of decertifying but not reimposing nuclear sanctions. 
Instead, the number of non-nuclear sanctions should be 
increased and INARA and JCPOA fixed in congressional 
legislation.
    The outline of this approach includes rewriting U.S. policy 
to eliminate the sunsets in a nuclear deal and Resolution 2231 
and tighten inspections.
    Congress, and in particular this committee, has already 
done significant legislative work on repairing the 5-year arms 
and 8-year ballistic missile sunsets in Resolution 2231, and I 
believe the legislation that is being put together or sent for 
markup will improve this even further. However, the President 
has not announced that this is U.S. policy or how this policy 
affects sunsets in Resolution 2231 and how this policy will be 
enforced.
    In cooperation with the administration, Congress should fix 
the nuclear deal legislatively, focusing on the nuclear sunsets 
and inspections.
    And let me stop here, since I am over, and happy to add to 
this during the questioning.
    [The prepared statement of Mr. Albright follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you, Mr. Albright.
    We go now to Jake Sullivan.

STATEMENT OF MR. JAKE SULLIVAN, SENIOR FELLOW, GEOECONOMICS AND 
 STRATEGY PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE 
(FORMER NATIONAL SECURITY ADVISER TO THE VICE PRESIDENT; FORMER 
     DIRECTOR OF POLICY PLANNING, U.S. DEPARTMENT OF STATE)

    Mr. Sullivan. Thank you, Chairman Royce, Ranking Member 
Engel, and distinguished members of the committee. I appreciate 
the opportunity to appear before you today alongside my 
distinguished panelists to discuss the full range of Iranian 
threats that are the subject of this hearing.
    I would like to make four points at the outset.
    First, the Iran nuclear deal is working as intended. It has 
put a lid on Iran's nuclear program and it is blocking Iran's 
pathways to a bomb. Of course, it is not a perfect agreement. 
Diplomacy requires compromise. But we got what we need to 
achieve the purposes of the deal. Thousands of centrifuges have 
been dismantled. Iran's plutonium reactor has been neutralized. 
Ninety-eight percent of Iran's enriched uranium has been 
shipped out of the country. International inspectors have new 
and unprecedented access to verified compliance.
    And all of this was achieved by diplomacy backed by 
pressure, pressure that was implemented to a certain extent by 
this committee, without the United States having to fire a 
single shot.
    Today, the IAEA, the U.S. intelligence community, and the 
Israeli security establishment have all assessed that Iran is 
complying with the deal. Secretary Mattis has testified that it 
is in America's national security interest. So it makes no 
sense for President Trump to decline to certify. The deal does 
not solve all problems with Iran for all time, but it solves 
the key problem at this time.
    This brings me to the second point, which is the nuclear 
deal does not preclude the United States from taking decisive 
steps to confront and counter Iran's malign activities in the 
region.
    The fact that the JCPOA does not address Iran's sponsorship 
of terrorism or its regional aggression is no concession to 
Iran. This was an arms control agreement, not a treaty of 
goodwill, and we specifically designed the deal to preserve our 
right and our capacity to counter Iran on all of these fronts.
    Today, we maintain the means to pursue a multidimensional, 
whole-of-government strategy to counter Iran's malign 
activities across the board. We can impose costs for their 
continued pursuit of ballistic missiles, deter and disrupt 
their financing of terrorism, work with our allies and partners 
to curb their regional aggression, and support the aspirations 
of the Iranian people. We can also take steps to address the 
continued detention of American citizens in Iran. And we can do 
this while relentlessly enforcing the Iran nuclear deal.
    This brings me to my third point. The best strategy to 
counter the full range of Iranian threats is to commit to the 
deal and, to borrow a phrase from the chairman, enforce the 
hell out of it, not cast it into doubt and raise questions 
about America's credibility.
    We want our partners around the world to ramp up pressure 
on Iran's malign activities in the region. We want our European 
partners to stop making the artificial distinction between 
Hezbollah's political and military wings.
    But it is a lot harder to get them to focus on these 
broader Iranian threats, the threats that are the subject of 
this hearing today, when all of their attention is on the 
question of will we or won't we walk away from the deal.
    To put it simply, it is a lot harder to get cooperation 
from our partners to counter Iran when they are thinking more 
about the risk that Washington poses than they are about the 
risk Tehran poses.
    Committing to the deal rather than playing games with it 
will not only help us marshal pressure on Iran for its regional 
activities, it will help us more effectively implement the deal 
itself.
    The deal does provide the IAEA access to military sites in 
Iran. If all partners trust in our good faith, they will be 
more likely to join us in adopting a more assertive approach to 
enforcement and our entreaties to the IAEA to enforce these 
aspects of the deal will not be met with suspicion about what 
we are really up to.
    Experience has taught us that when Iran is isolated and the 
world trusts America, we can rally the world to hold Iran to 
account. Let's get back to that.
    Fourth, walking away from the nuclear deal would be a 
disaster for the United States. Iran would resume its march 
toward a nuclear capability and the rest of the world would be 
deeply skeptical about joining us in rebuilding the global 
sanctions regime.
    Without a deal, we would be quickly faced with the very 
same painful choices we are currently facing with North Korea. 
These are choices we don't currently have to confront with Iran 
precisely because this agreement is in place.
    We already have to grapple with one nuclear crisis right 
now, as this committee knows well. Why would the administration 
want to create a second one? This defies not only sound 
strategic thinking, but also simple common sense.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Mr. Sullivan follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                              ----------                              

    Chairman Royce. Thank you very much, Mr. Sullivan.
    Let me say that in August, I was in the Middle East. And I 
wanted to ask Ambassador Jeffrey a question here, because you 
made it very clear that allowing Iran to complete the land 
bridge or the corridor across Iraq and Syria to Lebanon would 
risk, in your words, a strategic defeat.
    And I wondered if you could explain to us what you presume 
the impact will be on Lebanon, on Israel, and on Jordan. How 
could we work with our partners on the ground to block this 
effort?
    Ambassador Jeffrey. Thank you, Mr. Chairman.
    First of all, people have--including some in this 
administration--have pooh-poohed the idea of a land bridge: 
Well, it is long and it is a desert. I have been out there. You 
have been out there. A lot of us have been out there. TIR 
trucks roll around the Middle East deserts all of the time.
    The Iranians, for good reason, fear--because we have done 
it, we did it with Turkey a few years ago, we have done it in 
other areas--they fear our ability to intercept and force down 
aircraft if we really get upset with Iran. We control the air 
in the Middle East.
    We don't control the sand. That is what they want to do. It 
is a lot easier to move things by semi-trailer than it is by 
even jumbo jet, and the Iranians don't have many of them. The 
things they want to move are weapon systems, particularly, as 
you said, even more advanced rockets, missile systems, and 
components, so that Hezbollah can build such systems--we are 
seeing that now in Israel and Syria--to threaten Israel and 
threaten other allies. We see how upset Jordan is at Hezbollah 
moving close to its border.
    Turkey is very concerned about not just the PYD, but they 
are concerned about Assad trying to wreak revenge for Turkey's 
support for the opposition. Turkey thinks it can cut a deal 
with Russia. It can in the short run. In the long run, Turkey's 
turn to be invited back out of Syria will come, believe me, 
just like Israel will be told no longer to operate in the air 
there. That is, I think, what is going to happen.
    We see this with Lebanon, particularly the control, de 
facto, of the government by Hezbollah and thus of Iran. We saw 
that recently with the Lebanese Government's agreeing to ISIS 
fighters being transferred to the Iraqi front, basically, to 
the shock of the American administration.
    And the idea that Syria and ultimately Iraq will be 
dominated by these alternative forces, political, military, 
like Hezbollah, like the militias in Iraq, who are loyal to 
Tehran and will ensure that Tehran's interests are met.
    Chairman Royce. And that brings me to sort of the follow-up 
to that to General Wald.
    In 2006, I watched those rockets come down in Haifa. I went 
down to the Rambam Trauma Hospital. There were 600 victims. 
They had at that time, in Hezbollah's arsenal, about 10,000 of 
these left. Today they probably have, let's say, 120,000.
    General Wald, the fact that Iran is building in southern 
Lebanon and in Syria, across from Israel, factories to make 
additional rockets, when I was there, each one had 90,000 ball 
bearings in it, so you can imagine the damage it did when it 
came in on a civilian area. What can we do to help Israel 
respond to this obvious threat since they keep telegraphing the 
punch that they intend to deliver?
    General Wald. Yeah, Mr. Chairman, I think that is the real 
issue long-term.
    Just up front, I would say one of the problems I have with 
the current, at least, declared strategy in the Middle East is 
it is kind of incremental and not synergistic from an overall 
standpoint. I go back to the bottom line, which will be just 
what you pointed out, there is the threat to Israel, and Saudi 
Arabia, for that matter. And I think there is actually a new 
world kind of evolving in the Middle East that we need to start 
taking advantage, and that is this commonality of enemy with 
Saudi Arabia and Israel, for one thing.
    Two is, I think we need to look closely at our equipment 
transfer to both Saudi Arabia, but Israel as well, the number, 
as I mentioned in my testimony, that I think we ought to beef 
up the foreign aid to Israel from that standpoint. I was in 
Israel not long ago. We did a study on the 2015 conflict. And 
Iron Dome is fantastic. David's Sling will be fantastic. Arrow 
is really good. PAC-3 is outstanding. The problem is they don't 
have enough of it because of 120,000 missiles.
    So they also have to have kind of a left-of-the-attack 
capability, which might be a cyber-type capability, which we 
can't talk about here.
    But I think our U.S. policy and strategy, I would go along 
with what has been broadly commented here, is to let the JCPOA 
as it is, but enforce the sanctions, as you point out. I 
totally agree with you. I heard you on TV about a week ago 
saying this, and it is exactly what we ought to do.
    But then number two is I think we need to really look 
strongly at building a stronger, maybe a unique, if you will, 
or different anyway, Middle East coalition that would include 
favorable GCC countries, as well Jordan and Egypt, and really 
start beefing up our capabilities to deter both Iran and 
Hezbollah.
    Chairman Royce. Thank you, General Wald.
    I go now to Mr. Eliot Engel of New York.
    Mr. Engel. Thank you, Mr. Chairman.
    Let me first of all say that, since a number of questions 
have been raised by witnesses about Iran's compliance, or lack 
of it, with the JCPOA, and the IAEA's ability or inability to 
verify, I want to encourage members of this committee on both 
sides of the aisle to attend our classified briefing tomorrow 
at 2:30 with the intelligence community to learn more about 
this in a classified setting. So it is 2:30 tomorrow, talk 
about the IAEA's ability or inability to verify and Iran's 
compliance with the JCPOA.
    Let me ask Mr. Sullivan, how would President Trump's 
failure to certify Iranian compliance under the nuclear deal 
affect the likelihood that our partners would be willing to 
work with us on confronting Iran's malign activities, such as 
their support for terrorism and advancing their ballistic 
missile program? That is a concern I have.
    Mr. Sullivan. I think it will have a negative impact, for a 
couple of different reasons. The first is that it will put all 
of the focus of diplomatic discussions between the United 
States and our European partners on what to do about the deal 
and whether the President is going to stay in it and on what 
conditions he will stay in it and whether he likes it today and 
doesn't like it tomorrow.
    And this ``will he or won't he'' dance around 
decertification and what follows from that will distract the 
international community, the United States and our partners, 
from actually taking on Iran in Syria and across the region. 
And we have heard from other witnesses on this panel about how, 
as things stand today, United States policy toward Syria is 
permissive in respect to Iran's capacity to gain strength and 
gain territory. And we need to be working with our partners and 
focused on that as job number one right now.
    The second thing that I think it will do with respect to 
our partners is make them worried that if they actually worked 
hard with us on a broader strategy against Iran, whether or not 
we would have the staying power, the credibility to go with it. 
Because we have looked them in the eye and told them that we 
would be with them in enforcing this deal, sticking with and 
enforcing this deal, and casting that into more broadly casts 
American credibility into doubt.
    So from my perspective, the best way to achieve the 
objectives that I think both the Republicans and Democrats on 
this committee want to achieve with respect to Iran, we should 
commit to this deal. We should make clear that America's word 
is good, that America's faith is good, that we are going to 
enforce this deal to the utmost, and then we are going to rally 
the world to deal with all of these other challenges.
    Mr. Engel. Thank you. Thank you.
    Let me talk a bit about my trepidation about the 
relationship that Syria is building with Russia.
    Iran has begun to develop a permanent foothold in Syria, 
seeking a corridor from Tehran to the Mediterranean. You speak 
with all the top elected Israeli officials from the Prime 
Minister on down, they all watch this. They don't like the 
cease-fire in Syria. They are all concerned about it, that it 
brings Iran too close to the Israeli border.
    Iran's relationship with Russia, which is cemented in the 
battlefield defending the Assad regime, has made it possible, 
in my opinion, for Iran to make inroads in Syria, putting 
Israel's security at risk and threatening to further 
destabilize Lebanon and Iraq.
    So anyone who cares to answer this, I have three questions. 
Is the United States relying on Russia to influence Iran? Would 
Russia agree to keep Iran contained? And what motivation does 
Russia have in keeping Iran in check? It seems to be falling in 
right with their principles.
    Ambassador Jeffrey.
    Ambassador Jeffrey. I will start with my conversations in 
Moscow 2 weeks ago. I can't get into the details of who we 
talked with, because it was track two. But we met both 
officials and--how can I put it--former officials with close 
ties to the government.
    They basically felt that they were able to operate in Syria 
and that, as far as they were concerned, this whole process in 
the U.N., under U.N. Resolution 2254, the Geneva process for a 
political solution, they just give it lip service. They were 
pressing us to agree for a Marshall Plan for Assad's Syria, to 
build it up.
    And as far as this current administration, as I mentioned a 
few minutes ago on the land bridge, when I pressed them and 
said, ``Look, what happens inside Syria and what happens out of 
Syria is a security concern for our allies and for us,'' their 
answer was, ``But the administration doesn't tell us that. They 
say they are just in Syria to fight ISIS,'' which is why I said 
we have to shift our priorities.
    Russia, it does not have the same interest as Iran in 
Syria. For example, Russia wants to build up the Syrian 
Government and the regular Syrian military forces. Iran wants 
to at least implicitly undercut them by creating alternative 
power centers politically and particularly militarily. The 
model is Hezbollah. So there is some strain between the two.
    Russia also realizes that Israel and other countries are 
looking to Russia to constrain Iran. And it may be that Russia 
will be playing that mediator role. But that isn't good for us 
either, for Syria to be a threat to the region that is mediated 
only by Russia and not by us, because the way this place has 
worked for the last 30 years is we have been the country that 
has come in and kept things under wraps.
    So I do not think that Russia is fundamentally at odds with 
Iran and Syria. I don't think the differences are that big. I 
think that we as a government, if we have a specific policy, 
which we don't have yet, we might be able to use Russia on the 
margins but not too much, because they are basically an anti-
status quo power, as is Iran in the region, and we and our 
allies are status quo powers. It is that simple.
    Chairman Royce. Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Royce.
    It is abundantly clear that at this point this fanciful 
notion that if only we come to a nuclear agreement with Iran 
first, then Iran would be willing to engage on the rest of its 
illicit activity has proven to be just that, fanciful.
    And, Mr. Albright, you raised the possibility of the issue 
of non-implementation of Section T and that verification of 
this section would undoubtedly require IAEA access to military 
sites. Has Iran been granting the IAEA access to military 
sites, yes or no?
    Mr. Albright. Not since Implementation Day.
    Ms. Ros-Lehtinen. Thank you.
    Now, paragraph 27 of Section E in the August 2017 IAEA 
Board of Governors report on verification and monitoring of 
Iran's compliance with the JCPOA states, ``The Agency's 
verification and monitoring of Iran and other JCPOA nuclear-
related commitments continues, including those set out in 
Sections D, E, S, and T of Annex I of the JCPOA.''
    If the IAEA is not getting access to military sites to 
verify Section T, how is verification and monitoring of this 
section taking place, and how is Iran in compliance?
    Mr. Albright. Well, I think the IAEA leaves out many things 
from its reports. I mean, I have spent a lot of time talking to 
governments in Europe, people associated with the IAEA, to try 
to learn things. And it is just a decision that the Director 
General made that he is not going to be very transparent.
    And one of the reasons I looked into Section T was because 
it just seemed to be a clear contradiction between what he was 
saying, the Director General was saying, and what was actually 
happening on the ground.
    Ms. Ros-Lehtinen. Thank you, sir. I don't think I will have 
time for responses in this setting, but we will talk 
afterwards, and I know we will have an opportunity.
    Ambassador Jeffrey, you discussed the need to strip the so-
called seal of approval bestowed upon Iran by the JCPOA and 
undercutting the willingness of the international business 
community to fund Iran's economy. And you also talk about 
strengthening the U.S.-EU anti-Iran alliance.
    But the reality, as we know, is that EU nations have been 
unwilling to take any anti-Iran action, partly for fear that 
Iran will leave the JCPOA, but also in large part because they 
have concluded billions upon billions of dollars in deals with 
Iran.
    And I would ask you--we will talk later--to your knowledge, 
has the EU imposed any new non-nuclear-related sanction or 
designation against Iran since the JCPOA? And how do we get the 
EU on board when its member states have given their seal of 
approval and opened up Tehran for business?
    And then for General Wald, you mentioned Iranian regional 
aggression under the JCPOA undermining efforts in Iraq and in 
Syria, support for Hezbollah, support for the Houthis in Yemen. 
And there are also concerns that Qatar's restoration of ties 
with Iran, with Zarif having visited the emir just last week.
    So I would ask just how bad the consequences are for the 
region if Iran continues to support the Houthis and now draws 
closer to the Qataris. How would we be addressing that?
    And, Mr. Chairman, a note for the committee, as we are 
discussing the Iran nonproliferation threat, I would like to 
report to the committee that our very own Yleem Poblete was 
nominated today for the position of Assistant Secretary of 
State for Verification and Compliance. And as many of you know, 
Yleem served as the chief of staff and the staff director for 
this committee, and we congratulate Dr. Poblete on this 
nomination.
    So I won't have time for answers, but I will chat with the 
gentlemen afterward. So I yield back, Mr. Chairman.
    Chairman Royce. I thank the gentlelady for yielding back.
    Mr. Brad Sherman of California.
    Mr. Sherman. Mr. Chairman, I could imagine buying a flawed 
automobile and deciding it is a bad deal. And in some 
jurisdictions, you can just take the car back to the dealer and 
you get back all your money. But imagine if you lived in a 
jurisdiction where, if you take the car back to the dealer, the 
dealer keeps the car and your money.
    Iran is going to keep our money. We unfroze $100 billion of 
their money. People argue about whether it is larger or smaller 
than that amount. We delivered over $1 billion in currency. We 
can renounce this deal. Iran keeps the money and is then 
liberated from all of the restrictions on their nuclear 
program.
    Now, I opposed this deal because the restrictions on Iran's 
nuclear programs were temporary but U.S. obligations under the 
deal are permanent. What we should be trying to do is extend 
and enforce the nuclear sanctions. If we renounce this deal, we 
don't extend and enforce the nuclear sanctions and restrictions 
on Iran, we end them.
    Now, there are two methods by which we can get to that bad 
result. The first is on our minds now because it could be 
triggered--the first stop could be on October 15. And that is 
the President could fail to issue the certification under the 
Iranian Nuclear Review Act.
    I think if he did that the press might overplay it, but all 
it does is change Senate rules. It says that there could be a 
bill that would get immediate--or 60-day attention--it would 
get expedited attention in the Senate to reimpose one or more 
of the sanctions that we agreed to get rid of as part of the 
JCPOA. And they would need 50 votes instead of 60.
    I don't think the Senate will use that, I don't think that 
they will impose the sanctions, because I don't think they want 
to take back the car and let the dealer keep our money too.
    The other way that we could reach the same bad results 
would be in January of next year, because the only way the 
JCPOA works is for the President to issue waivers under four 
different--at least four different sanctions bills, and all of 
those sanctions waivers expire in the middle of next January.
    Now, if the President were to fail to issue those waivers, 
then, regardless of the wisdom of Congress, we would get the 
bad result. So my hope is, if the President has to do something 
based on his need to repudiate anything that Mr. Obama is 
associated with, that he would take the action that just kicks 
the matter to Congress, and then Congress could wisely refuse 
to make a bad decision.
    If he instead waits till January and refuses to issue these 
waivers, not as a result of congressional action but just as a 
result of his own action, then there will be celebrations in 
the Islamic Republic.
    What we need is more sanctions with European support. The 
way we get those is, as Mr. Sullivan points out, we are free to 
impose sanctions for their other evils.
    And a number of us asked John Kerry about this in July 2015 
when he came before us. I specifically asked about the Central 
Bank sanctions. And I said, ``Is Congress and the United States 
free, under this agreement, to adopt new sanctions legislation 
that will remain in force as long as Iran holds our hostages or 
supports Assad?'' I could have added ``or supports the Houthi 
or engages in terrorism.''
    His response was, ``We are free to adopt additional 
sanctions as long as they are not a phony excuse for just 
taking the whole pot of past ones and putting them back.''
    So we have to convince the world that we are sanctioning 
Iran in a different way for different reasons. The more we say 
we hate the deal and we are in the process of repudiating the 
deal, the more the sanctions of 2017 begin to look like a phony 
excuse for taking the whole pot of past ones and putting them 
on, and letting Iran argue that they are liberated from the 
nuclear restrictions.
    The more we say that we are going to live with this deal, 
that we respect the deal, and that we are imposing new 
sanctions because of Iran's other evils. And here I want to 
thank the Islamic Republic because they have committed such 
incredible evils, such mass murder in Yemen and in Syria, that 
they will more than justify any sanctions any of us can come up 
with.
    I have used my time. I would ask the witnesses to respond 
for the record, and particularly, I would like Mr. Sullivan to 
outline what are the toughest sanctions we can impose that meet 
Kerry's standard.
    Chairman Royce. Thank you, Mr. Sherman. Mr. Chris Smith of 
New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman. Mr. Sullivan, 
let me ask you. During the debate over the Iran agreement, the 
Obama administration repeatedly charged that opponents of the 
egregiously flawed deal somehow were pushing for war. And 
nothing could have ever been further from the truth in that 
false allegation.
    Let me ask you this. Is Iran's behavior, its increased 
aggressiveness, its build-out on ballistic missiles, what you 
expected from the deal?
    Mr. Sullivan. Thank you for the opportunity to actually----
    Mr. Smith. Make it quick because I don't have much time.
    Mr. Sullivan. To clarify this point. I never believed in 
negotiating this deal from the beginning that producing a 
nuclear agreement with Iran and arms control agreement with 
Iran that we would fix Iran's larger----
    Mr. Smith. Okay. You said that. Let me ask you this and the 
others, too. Secretary of State John Kerry said on CNN or it 
was reported by CNN, January 21 of 2016, that money from the 
deal that the Iranians were getting would go to terrorists. To 
whom has that gone? Who are the terrorists and how much?
    Mr. Sullivan. As I understand it, the Trump 
administration's DIA chief has said, the bulk of that money has 
gone to domestic purposes, not to the IRGC. But, of course, the 
IRGC and its affiliates----
    Mr. Smith. But do you know how much is gone?
    Mr. Sullivan. No. I think it would behoove the committee to 
get a briefing from the DIA chief who has laid out where he 
thinks the assessment----
    Mr. Smith. Let me just say something. We had numerous 
hearings and the chairman was stellar in ensuring that we had 
multiple hearings on the Iran deal before, during, and now 
after. Even before the deal was signed, Khomeini said that he 
will never permit inspectors to inspect Iran's military bases.
    The Iranian Minister of Defense said, 
<greek-l>quote deg.``Tehran will not allow any foreigner to 
discover Iran's defensive and missile capabilities by 
inspecting the country's military sites.'' And Under Secretary 
of State, Wendy Sherman, and others, continually talked about 
any time, anywhere types of inspections.
    General, you might want to speak to this. She then went on 
to say, absent the deal that was signed, that was merely 
rhetorical. Ronald Reagan used to say, on-sight verification 
was key. Any time, anywhere, and you brought up, and Mr. 
Albright, this Section T problem, you might want to elaborate 
on that, if you would, for the committee. General.
    General Wald. Congressman, thank you. First of all, on the 
money issue, I would just say from my perspective, I am not a 
treasury expert, but $100 billion to Iran may not necessarily 
have gone directly to the IRGC, but it freed up the money that 
they would have given the IRGC had they had it in their own 
coffers. Maybe it didn't go directly to them, I think it is a 
nuance that----
    Mr. Smith. The money is fungible, in other words.
    General Wald. Money is money, it is fungible. On the 
inspection issue, I don't think any of us should be naive to 
think Iran is not cheating on what we considered the deal with 
the military installations. That to me, is almost 
flabbergasting that we would think that was going to be an 
acceptable issue where we have, you know--frankly, underground 
facilities could be built almost anyplace. We don't have 
perfect intelligence. We have some pretty darn good 
intelligence. We don't have perfect. I would venture to say 
that I would be 99.9 percent sure Iran is cheating on the deal, 
and that portion of it needs to be looked at closely.
    And I am very disturbed that we are basically void of a 
real broad strategy in the Middle East that would both defend 
our interests and Israel's.
    Mr. Albright. I think one of the unfortunate mistakes that 
the Obama administration made was to downplay the importance 
and of getting demonstrated access to military sites in Iran, 
and solving what are called these possible military dimension 
issues prior to implementation day. It set up a very unworkable 
dynamic for the inspectors.
    There is a mechanism in the deal to really press Iran to 
accept inspections, but it happens to have a huge risk of 
bringing down the deal. And the international inspectors don't 
want to be put in that position. And I think that has been part 
of their timidity to push this issue. I think that one of the 
things that if the President does decertify, and in fact if he 
doesn't, there is a need for Congress to start thinking through 
legislation to fix this deal.
    And I think there is many ways to do that, but I think it 
is a priority to focus on how to ensure that the inspectors get 
in there. And I would add, that most of this new talk of 
wanting to enforce the deal better among our allies, willing to 
look at fixes, is only because President Trump said he would 
walk away. Before that, there were big problems in getting the 
Europeans to take any of these problems seriously.
    So I think that President Trump has done a service, while 
we could all argue about how it is played out, but he has done 
a basic service to try to get people to focus on the 
inadequacies in this deal and fix them.
    Mr. Smith. Let me just ask, in my final second. Iran/North 
Korea collaboration, does it exist? Has it in the past? What is 
the status of it now?
    Mr. Albright. Certainly there is a belief there is 
collaboration on missiles. On nuclear, it is much more 
uncertain, but it is a concern for the future.
    Chairman Royce. Mr. Greg Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman. First, I just got to 
make a comment, General Wald, that your last statement is 
clearly speculation--is 99 percent pure speculation. And 
speculation without facts, sir, is very dangerous. So I just 
have to make that comment. I don't need an answer, but I just 
need to make that statement because----
    General Wald. Well, I would just say one thing. There is 
.01 percent it isn't--and number 2 is,----
    Mr. Meeks. Well, I have limited time. I am reclaiming my 
time.
    Mr. Sullivan, number one, listening to your testimony 
earlier, I go to church on Sunday. I would have said amen. It 
seems to me that it made logical sense. I think people forget 
how we got to the table into the first place. It wasn't a 
bilateral agreement between us and Iran, it wasn't even the 
bilateral sanctions that we had on Iran.
    It is the fact that we did lead that was able to get the 
other countries to work with us, and for them to also apply the 
sanctions multilaterally that brought them to the table so that 
we can discuss what issue, which our focus was, to prevent them 
from having a nuclear weapon, as you appropriately said.
    And that there was nothing to prevent this, because I think 
we are all united on the fact that we are not sitting back and 
trusting Iran and saying that we are not going to do anything--
other than nefarious activity, we got to stop them. And we got 
to use, you know, other sanctions. We have got to try to unite 
and bring our allies together, as we did, on this agreement to 
prevent Iran from having nuclear weapons.
    And I think that we all agree, too, I don't know any bill 
ever passed the United States Congress, or anyplace else, that 
is perfect. There is no bill that is perfect. We always 
negotiate and no one gets their way 100 percent. That being 
said, I would be interested to know, Ambassador Jeffrey, you 
heard the testimony of Mr. Sullivan, is there anything that you 
disagreed with that Mr. Sullivan said?
    Ambassador Jeffrey. I was both hoping and fearing that that 
question would come up, Congressman, because Jake and I have 
both worked a lot in the diplomatic world, and when we 
disagree, this is a disagreement of opinion, we can't prove it.
    Here is the problem with this agreement and our allies. 
First of all, our allies in the region are happy if we not walk 
away from the agreement, but we can certainly do quite a bit on 
it. We are really talking about our allies in Europe. And they 
have an almost rabid embrace of this agreement because of their 
philosophy, which is that international agreements and the U.N. 
are the way to deal with all problems.
    The problem with this is, they also have a rabid reluctance 
to engage or even to support us in engaging doing the hard work 
of containing Iran. I don't think that us behaving well with 
this agreement is going to get them to sign up to more joint 
action in Syria and Iraq against Iran. I think, rather, as Mr. 
Albright said, if we question that agreement, and say, look, to 
the degree we are going to hold to much of it will depend on 
how successful we are regionally, and that requires your help. 
I think that is the way to go forward.
    Mr. Meeks. Go ahead, Mr. Sullivan. I see you wanted to say 
something.
    Mr. Sullivan. I think this military inspection issue is a 
great case in point. The deal provides the IAEA the opportunity 
to get access to Iran's military sites, and Iran is not allowed 
to simply say no. However, it also requires our allies to work 
with us, our European partners to work with us to make that 
happen.
    When Ambassador Haley goes to Vienna to raise the issue of 
access to military sites, and there are reports in the press 
here that say the reason the Trump administration is raising 
this is they wanted an excuse to walk away from the deal. It is 
no surprise the Europeans and the IAEA are reluctant to engage 
with United States on that issue.
    From my perspective, the way we were able to build a 
campaign of pressure against Iran to get to this nuclear deal 
in the first place, which the Europeans did not want to go 
along with because they were allergic to the really biting 
sanctions, it was by making clear that the United States was 
going to act in good faith, and that all of the burden of proof 
was on Iran.
    What the Trump administration has done is created real 
questions about where that burden of proof should lie, and that 
is why I think we have such a challenge.
    Mr. Albright. Could I add one thing. I think Ambassador 
Haley went to Vienna for very good reasons, to raise issues and 
learn things. Using false statements in the press to try to 
impugn what she did, I think is unfair.
    Mr. Sullivan. I am not impugning Ambassador Haley, what I 
am saying that is the Trump administration's approach, they are 
putting out publicly that one of the ways in which they may 
want to ultimately walk away from the deal is to point to this 
provision. And to make that part of the public theater around 
this, I think it is a challenge. That has nothing to do with 
Ambassador Haley herself.
    Mr. Albright. They never said that----
    Chairman Royce. Well, time has expired, regardless. And we 
have to go to Mr. Dana Rohrabacher of California next.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. And 
again thank you and Representative Engel, for your leadership 
on this particular issue, which is of vital importance to the 
security of our country. Let me just see if I can ask a yes or 
no question.
    Is Iran in compliance with the treaty? Just yes or no, down 
the line.
    Ambassador Jeffrey. Treaty yes; 2231 Resolution, no.
    General Wald. No.
    Mr. Albright. Not in full compliance.
    Mr. Sullivan. Yes.
    Mr. Rohrabacher. Okay. So we have two of our witnesses are 
saying that they--it was their decision that basically Iran is 
not in compliance, and we have one that is sort of both ways, 
but in the end that was a no, as far as I am concerned.
    General, let me just note, we have to push buttons here, 
yes or no, when we go to vote. And when you got 99 percent of 
something, you feel something is right 99 percent. That is a 
really easy vote for us to make. Maybe I am just talking for 
myself, because you do realize there is always a couple 
percentage points on the side of the argument.
    So let's just say already we have the majority at least of 
this--of our witnesses today saying that Iran is not in 
compliance. And is there a question then, should the President 
of the United States lie about it? We gave him the 
responsibility of determining where there was compliance. Of 
course not. And we have people who are responsible people 
throughout our country telling us they are not in compliance. 
And it may mean something really bad for our country in the 
future if we simply ignore it, as we have found out in Korea.
    And I was right here when we were told about how North 
Korea deserved to have the treaty, and we gave them $5 billion, 
and now where are we at--on the edge of a catastrophe. No, it 
does not--kicking the can down the road, asking the President 
not to recognize reality is not the answer here.
    And, again, I agree that we owe the President a debt of 
gratitude for bringing some reality to decision-makings like 
this, rather than trying to have what I call irrational 
optimism about the future, which always leads us to situations 
where--like we face in North Korea today.
    One thing that we--this is not just an alternative, 
however, of facing the mullahs down on this particular issue or 
dealing with them in some way militarily. We have other ways of 
ratcheting up pressure on the mullah regime.
    We have some friends here dressed in yellow today to remind 
us that the people of Iran don't like the mullah oppressors who 
murdered their own people. We have people, Baloch in Iran. We 
have Azeris in Iran. We have Kurds in Iran, all of whom feel 
they are opposed. We haven't even ratcheted up any of the 
pressure on them, even as Iran, the mullah dictators, thumb 
their nose at us and take the money, but don't comply fully 
with the expectations of that treaty.
    We need leadership here. We can't wait for more than 99 
percent certainty before we act. And there are avenues that are 
non-military confrontational. So I would hope that we act. And 
I wish our President well. Our chairman, Ed Royce, in his 
opening statement, Chairman Royce mentioned the fact that there 
are people in Iran who are not our enemies. The people of Iran 
are not our enemies. It is the mullah regime. Just like the 
people of North Korea are not our enemies. We have got to be 
realistic in our approach and not try to ignore realities, if 
we are going to have a better and more peaceful future.
    I will give--I have 20 seconds more. If anyone can--Mr. 
Sullivan, go ahead and disagree with me. Go right ahead.
    Mr. Cicilline. I ask unanimous consent to give him 
additional time, disagree with Mr. Rohrabacher.
    Mr. Rohrabacher. Oh my gosh.
    Mr. Sullivan. I would say, first, I wouldn't substitute the 
judgment--as much as I believe in myself and respect my 
colleagues here on this panel, I would not substitute the 
judgment of any of us for the combination of the IAEA, the 
United States intelligence community, and the Israeli security 
establishment, all of whom have said Iran is complying with the 
deal.
    And then secondly, as respects the reality of Iran's malign 
activities in the region, I laid out my own views about the 
threat that it poses, and the steps, the decisive steps the 
United States needs to take to do it. I think we do that better 
by committing to the deal than playing games with it.
    Mr. Rohrabacher. And thank you, witnesses, and Mr. 
Sullivan. Does that include a comment from one of our other 
guests as well. Yes. Go right ahead.
    Ambassador Jeffrey. Very quickly, Congressman Rohrabacher, 
the legislation that you gave to the President that he is 
acting on with this certification, the Iran Nuclear Agreement 
Review Act, has him certify things beyond just whether Iran is 
in compliance, including, is Iran doing things outside, this is 
number three. Is Iran doing things outside of the agreement, 
covert or others, for its nuclear weapons program? Arguably its 
missiles would put it in that category. And number four is, is 
it in our vital national interest?
    I think that the President has room to take step one of 
several positions here without necessarily challenging Mr. 
Sullivan's view that technically Iran is in compliance with the 
agreement, not the U.N. resolution.
    Chairman Royce. Okay. We go now to Mr. Ted Deutch of 
Florida.
    Mr. Deutch. Thank you, Mr. Chairman. Thanks to you and the 
ranking member. Thanks to our really esteemed group of 
witnesses here today.
    Mr. Chairman, I opposed the JCPOA back in 2015. But like 
you, I said from the beginning that we have to vigorously 
enforce this international agreement to ensure that we hold 
Iran accountable where we can. And while I continue to have 
some concerns, I believe the President's own Secretary of 
Defense and his own Chairman of the Joint Chiefs, and the 
opinions that we have heard today, that walking away from the 
deal is simply not in our interest.
    Mr. Albright, you presented some of the dangers of the deal 
sunset provisions. Beyond the ability of Iran in 8 to 13 years 
to ramp up centrifuge design of construction, increase 
enrichment activity, and pursue heavy water. There are 
conventional weapon sunsets coming even sooner. In just 3 
years, U.N. restrictions on conventional weapons transfers 
expire, in 5 years the sanctions of the missile program 
expires, and the EU arms embargo expires. And I think people 
are right to focus on the implications of these provisions 
lapsing.
    But if we walked away from the agreement tomorrow, if the 
President pulled us out of the JCPOA, those sunsets would 
effectively drop from a decade to a day, since Iran would be 
freed of its obligations under the deal. That is the 
implication of what happens if the President chooses to pull us 
out of this deal.
    Mr. Albright, in your testimony you recommend a policy 
whereby the JCPOA is but one aspect of many in confronting 
Iran's malign activity. I could not agree more. And that is 
precisely why Congress passed targeted Iran sanctions earlier 
this year, which includes a host of new authorities for the 
President to combat Iran support for terror groups like, 
Hezbollah, IRGC's regional meddling, ballistic missile 
development, and their appalling human rights record.
    Like Mr. Sullivan noted earlier, I too am at a loss for why 
the administration has been slow to enforce these sanctions. 
And so, Mr. Sullivan, I would ask you, as we engage in a replay 
of so many of the discussions that took place surrounding the 
JCPOA, Iran continues its dangerous activities. We have 
provided tools now to do something about it. What should we be 
doing?
    Mr. Sullivan. I am afraid that for reasons I can't fully 
explain, there is a significant gap between the rhetoric from 
this administration on Iran and their policy on the ground. I 
think one of the reasons is because they have had an ISIS only 
focus in Syria. And Syria is a crucible--it is a critical 
theater for Iran's efforts to expand its influence in the 
region.
    I believe that the administration should come forward with 
a comprehensive strategy for how we are going to deal with the 
future of Syria that is not just about ISIS, but that is about 
denying space and capacity for Iran and Hezbollah to threaten 
the rest of the region. And even, as Chairman Royce was talking 
about, set up rocket factories right near the border with 
Israel. I think they have to show us how they are going do 
that.
    Beyond that, the House and Senate produced a set of non-
nuclear sanctions around ballistic missiles and other malign 
activities. And to my knowledge, to date, those various 
sanctions have not been enforced yet by this administration, 
certainly have not been enforced fully. I would ask the 
administration, why not? And I would get to work doing that.
    Part of the reason I suspect that they haven't been fully 
enforced is the administration is putting all of its time, at 
the moment, into figuring out how to resolve this completely 
unnecessary debate around certification, and taking their eye 
off the ball of these other issues.
    My argument would be, because you can and should certify, 
do so, and then move on to focus on the immediate threats that 
we face in the region.
    Mr. Deutch. And you had said in your testimony that the 
deal is not a perfect agreement. I agree. I just believe that--
and I also think it is okay to acknowledge that. And I think 
that we have an opportunity to try to address the short-falls 
of the JCPOA through diplomatic channels, which will be made 
exceedingly more difficult if we isolate ourselves from our 
international partners and cut off the diplomatic channel that 
we need to do something else, which is to finally bring home 
the Americans who are held there, including my constituent, Bob 
Levinson.
    Mr. Sullivan, you noted that we can bring considerable 
pressure to bear on Iran's continued detention of American 
citizens. Bob, as you know, we have talked about multiple 
times, is the longest held American hostage. His family has 
been missing him for more than 10 years now. What more can and 
should the administration be doing to secure his release and 
the release of other Americans who are being held?
    Mr. Sullivan. First, I think that senior officials in the 
White House should meet with the families of all of these 
detained Americans. Should talk to them about what they are 
going through and how they are suffering. When I was in 
government, I dealt with the families of the brothers and the 
parents of detained Americans in Iran, who we ultimately, 
thankfully, were able to bring home.
    And then I think that the administration should be making 
clear to the Iranians that the United States has a number of 
tools at its disposal to be able to bring pressure on Iran, as 
long as they continue this unjustified and inhumane detention. 
And we should do so. We should put this up to the top of the 
diplomatic priority list because these are our citizens and 
these are our people and we should get them home.
    Mr. Deutch. I appreciate it. Thank you. Thank you, Mr. 
Chairman.
    Chairman Royce. Ted Poe of Texas.
    Mr. Poe. Thank you, Chairman. Mr. Sullivan, you mentioned a 
word, rhetoric. Rhetoric. When the Iranians say, ``The 
Ayatollah says he wants to eliminate and destroy Israel,'' do 
you believe that is rhetoric or do you believe that that is the 
policy of Iran? Which is it?
    Mr. Sullivan. I believe that the Iranians were trying to 
acquire a nuclear----
    Mr. Poe. Pick one. Excuse me. It is my time. Just answer 
the question. Is it rhetoric or do they mean it? Take your 
choice. Don't explain the answer.
    Mr. Sullivan. I think they would like to see the end of the 
State of Israel.
    Mr. Poe. How about the United States? Number one, wipe out 
Israel. Number two, wipe out the United States. Is that 
rhetoric or does the Ayatollah mean it?
    Mr. Sullivan. I am not familiar with him saying wipe out 
the United States.
    Mr. Poe. Well, you are not reading his press releases. 
Ambassador Jeffrey, what do you think, is it rhetoric or does 
he mean it?
    Ambassador Jeffrey. On America it is rhetoric. On Israel it 
is more serious.
    Mr. Poe. So he doesn't mean it when he says he wants to 
eliminate the United States from the face of the Earth?
    Ambassador Jeffrey. I don't believe so. I believe he does 
want to take that position, vis-a-vis, Israel, and he is taking 
actions that will allow him to possibly do it.
    Mr. Poe. So you think that the United States can afford to 
believe that, oh, it is just rhetoric, they don't mean it, they 
love us. You want us to take that position with nuclear weapons 
at stake, intercontinental ballistic missiles at stake, working 
with the North Koreans. They don't need intercontinental 
ballistic missiles to destroy Israel, they have missiles to 
destroy Israel. They want those missiles for us, maybe the 
Europeans. So you just want us to take the chance that, oh, it 
is rhetoric, even though he has said that since the day he has 
been anointed as the Supreme Leader of Iran. He wants to 
eliminate the United States. You want us to take that chance?
    Ambassador Jeffrey. This is based upon 40 years of dealing 
with the cultural and religious and historical----
    Mr. Poe. So you want us to take the chance? Mr. Ambassador, 
I am sorry, I have 5 minutes. Don't ramble. You want us to take 
the chance that it is rhetoric?
    Ambassador Jeffrey. It is not rhetoric, he wants to drive 
us from the Middle East and will use every means possible to do 
so----
    Mr. Poe. Including destroying us. Excuse me. I am 
reclaiming my time. I just have a few minutes. I don't want to 
be combative in the sense that we are not dealing in the real 
world. I think Mr. Rohrabacher said, irrational optimism is a 
good phrase. We are dealing with irrational optimism if we can 
trust the Iranian Government. They have done everything they 
can to move to a place where they can destroy the United 
States.
    The human rights abuses against their own people, we don't 
spend a lot of time talking about that. You got a group of 
people here, they have got families and friends that have been 
tortured, disappeared, locked up in prison over the years 
because of the regime that wants to destroy the United States. 
I commend them for being here. Talk to these people and find 
out how their families were tortured in Iran, and continued to 
be tortured by this guy, who uses rhetoric, to say he is going 
to destroy the United States.
    Everywhere in the Middle East you find Iran mischief-
making. We had a hearing in our terrorism subcommittee last 
week, we used this map to talk about the fact that the Iranians 
are using terrorist groups in Afghanistan, Iraq, Syria, Yemen, 
West Bank, the Gaza Strip, Bahrain, and Lebanon. Everywhere 
there is the turmoil in the Middle East, there is the Iranian 
Government doing what they can through the IRGC or terrorist 
organizations.
    We need to take these people serious when they say that 
they want to eliminate Israel and they want to eliminate the 
United States. I think we are dealing in, like I said, 
irrational optimism if we think anything different. So without 
using Trump rhetoric, I think the President is being a realist 
about the world's situation. We over here, and the Europeans 
especially, who have a history of not dealing with actual 
facts, especially when it comes to countries that want to take 
over the rest of us. So we do what we can to stop what they are 
doing.
    Now, maybe it is the deal, maybe it is--I would like a 
refund on that $150 billion we gave to them. Maybe it is to 
stop the intercontinental ballistic missiles, because that is 
not rhetoric, they are actually developing those, in my 
opinion, with the North Koreans. And you got these two rogue 
states in the world who keep talking about how they want to 
destroy the United States.
    Maybe we should say, okay, we are going to be prepared 
rather than say, well, you really don't mean it. So, I know I 
have gone over, Mr. Chairman, I apologize. And thank you, 
gentlemen.
    Chairman Royce. Thank you, Judge. Well, unfortunately, 
General Wald had to leave us for a previous commitment, but we 
appreciate his time and willingness to continue the 
conversation, as he has indicated to us with the members here.
    We now go to Congresswoman Karen Bass of California.
    Ms. Bass. Thank you. Thank you, Mr. Chairman, as always, 
for holding this hearing. I wanted to get at a couple of things 
in my questions. One is the differences between you when--I 
think it was two of you said Iran was not complying. And you, 
Ambassador, said that Iran was complying, but not with the 
resolution. And then Mr. Sullivan said there was compliance. 
And I wanted to understand what the differences were. Where you 
think Iran is not complying, and what is the difference between 
Mr. Albright and Mr. Sullivan.
    And then I also wanted to ask a couple of questions related 
to the consequences of us walking away, if we did. So maybe Mr. 
Albright and Mr. Sullivan can begin.
    Mr. Albright. Yeah. One is--in my testimony I gave several 
examples of where they have--they have been violating the deal, 
and I can go through them----
    Ms. Bass. Well, just give me one, and then I would like ask 
Mr. Sullivan to respond to that.
    Mr. Albright. Accepts numbers of centrifuges that they were 
operating. They have exceeded on the heavy water cap.
    Ms. Bass. Okay.
    Mr. Albright. And I can name 5 or 6 others.
    Ms. Bass. That is fine.
    Mr. Albright. I want to make another point.
    Ms. Bass. Okay. Quickly.
    Mr. Albright. Quick clarification. The International Atomic 
Energy Agency does not rule on whether Iran is in compliance. 
It is a misstatement to say that their reports or the 
statements of the Director General are saying that Iran is in--
--
    Ms. Bass. Okay. Thank you. Mr. Sullivan, can you please 
respond?
    Mr. Sullivan. Yes. I think Mr. Albright would agree that 
these two examples he just gave, both of which have been cured, 
were not material breaches of the agreement. In fact, that is 
why, in his public writings, Mr. Albright has tended to rely on 
the--it is not in our interest prong of the certification 
rather than the compliance prong.
    I would also say that what Ambassador Jeffrey said in terms 
of the distinction between the U.N. resolution and the deal is 
correct. The U.N. resolution bars Iran from testing ballistic 
missiles, they are doing so. So it is in fact the case that 
Iran is not in compliance with the U.N. Security Council 
Resolution, which is why steps by this committee on issues like 
ballistic missiles are not only justified but necessary.
    Ms. Bass. So being not----
    Mr. Albright. And I----
    Ms. Bass. No. Being not in compliance with the U.N. 
resolution, what is the implication of that for the deal?
    Ambassador Jeffrey. I have talked to the Iranians on that, 
and they say, well, we didn't agree to that. But it turns out 
that the U.N. resolution is under chapter seven, which has the 
force of international law. And it is not just the missiles, it 
is also arms transfers. In fact, that is stronger language in 
the resolution.
    What it does is, again, it casts into doubt what Iran is 
trying to do in the region. Why it doesn't adhere to those 
resolutions, that resolution--and again, it raises questions 
about the political environment in which this deal was done. 
This is not a country coming in from the cold. This is not a 
country giving up its--as the Congressman had said--its 
rhetorical threats to Israel--and real threats to Israel and 
rhetorical threats to us. This is a problem.
    Ms. Bass. Okay. So in terms of consequences of walking away 
from the deal, that part is difficult for me to understand, 
considering, as my other colleagues have said, this was not a 
bilateral agreement. So one of the consequences for snapback 
sanctions would be sanctioning Chinese companies for doing 
business with Iran. How then would this impact U.S. strategy on 
North Korea?
    Ambassador Jeffrey. Again, we have different opinions here. 
I am not for walking away from the deal.
    Ms. Bass. Okay.
    Ambassador Jeffrey. I think that the deal is flawed and I 
think that there are things we can do. I would--frankly, I 
would be in violation, if I could, of the two articles that 
call for us to help Iran economically, and I would push for a 
new agreement. I would pressure Iran, through financial 
constraints on companies and such, and I would raise the 
possibility that we are going to do more against the deal 
because this deal is part of a larger context.
    Walking away from the deal is, as everybody has said, is 
not going to get a new and better deal. The Europeans, the 
Russian, and the Chinese are neither going to negotiate a new 
deal, nor will Iran. And, furthermore, they will not apply the 
U.S. sanctions multilaterally against Iranian oil.
    Ms. Bass. Mr. Albright, consequences of walking away? I am 
assuming that you think we should walk away from the deal.
    Mr. Albright. No, I didn't say that.
    Ms. Bass. Okay.
    Mr. Albright. What I said is, I separate the certification 
process. There are some real problems in INARA.
    Ms. Bass. Do you think we should walk away from the deal?
    Mr. Albright. No. I think we should fix it----
    Ms. Bass. How do we fix it unilaterally without all the 
other----
    Mr. Albright. I think we should wait and see what President 
Trump says, and rewrite the conditions of the deal.
    Ms. Bass. Okay. In, my last 30 seconds. Could you respond, 
Mr. Sullivan, in terms of if the snapback sanctions in China--
what I was saying?
    Mr. Sullivan. Yes. Both with respect to China and with 
respect to any efforts in negotiating with North Korea, going 
to them, and saying, hey, work a deal with us on the nuclear 
issue, you can count on us to actually enforce it. That would 
be a laughable proposition if we just walked away from the 
Iranian nuclear deal.
    And by the way, we do not have the bandwidth to take on two 
nuclear crises in two different regions of the world at the 
same time, so let's not create a second one.
    Ms. Bass. Thank you. Thank you, Mr. Chair.
    Chairman Royce. Thank you, Congresswoman Bass. We go to 
Adam Kinzinger of Illinois.
    Mr. Kinzinger. Thank you, Mr. Chairman, and thank you all 
for being here today, I appreciate it. I think one of the 
things that has probably been mentioned, but it bears 
repeating, is there are a lot of dead American soldiers as a 
result of Iran's intervention in Iraq. And when I was in Iraq, 
I mean, there were operations against these--whether it is the 
EFPs or intelligence assets, et cetera. So I think that is 
something we should never forget.
    The big picture, this deal, I think, whether Iran is 
violating the technical letter of the deal, there is no doubt 
they are violating the spirit of the deal. And I found it 
interesting that Foreign Minister Zarif blamed the U.S. for 
instability in the region when in fact it is their support for 
Bashar al-Assad with the Russians in brutalizing and in 
murdering plenty of innocent people in Syria is one of the most 
destabilizing forces in the Middle East in a very long time. 
And our inaction there is actually shameful.
    Mr. Sullivan, just a couple of questions, respectfully, for 
you. Based on your role in the negotiations, why was it so 
important for the administration to separate the terrorism 
support and the missile development from the JCPOA? And let me 
ask you more specifically. In the opening salvo of our 
negotiations, was missile development on the table and then was 
it taken off?
    Mr. Sullivan. We made a strong push to curb Iran's 
ballistic missile activity as part of the deal. It was clear to 
us that we were not going to get to deal on the fissile 
material, the nuclear material, with missiles as a part of it. 
And we made a decision that not allowing Iran to get a nuclear 
bomb was worth doing, even though we have to pursue the missile 
issue separately.
    With respect to terrorism, there are two reasons. The first 
is that that requires a regional negotiation that goes way 
beyond what the P5+1 can do, because that implicates all the 
countries of the region.
    But secondly, trading off what Iran can do in the region 
against particular constrains in its nuclear program is a very 
strange way to conduct a negotiation. It is better, from my 
perspective, to do an arms control agreement with a country 
that is an adversary of ours, like we did with the Soviet 
Union, and then retain our capabilities to go after them for 
all of their malign activities in the region, including, as you 
say, the killing of American troops in Iraq.
    Mr. Kinzinger. I think the broader thing is, as one of you 
all mentioned just a few minutes ago, let's wait to see what 
the President unfolds when he talks about this. There is a lot 
of speculation about what the President is going to do. I know 
some of the strategy and some of my discussion, I actually 
think it is well thought out. But we need a broader engagement 
of Iran. I think the nuclear deal is a small part of the bigger 
piece of the pie.
    I do want to make the point, though, that developing the 
delivery mechanisms for nuclear weapons is an extremely, in my 
mind, important part of the nuclear weapon question. And so I 
think that is something I hope we can address.
    Ambassador Jeffrey, we have talked extensively about Syria 
in the past, and as we mentioned, Iran continues its support of 
Bashar al-Assad and instability. On numerous occasion, Iranian-
backed Shia militia have threatened our special forces that are 
working with the moderate Syrian opposition on the ground. And 
every time Iran has tried to poke the bear, we have responded 
with force, which I commend. However, if we continue to allow 
Iran to gain more of a foothold in Syria, there is going to be 
no stopping them from achieving their land bridge of control 
from Tehran to the Mediterranean.
    What do you think a permanent Iranian presence in Syria 
would look like? And what actions do we need to do to prevent 
them from establishing this presence?
    Ambassador Jeffrey. It would look a lot like what we have 
at present, Congressman, that is, it would have Iranian 
advisers, it would have essentially the Quds Force, foreign 
legion of militias from as far afield as Afghanistan, 
obviously, Hezbollah present there. It would have weapons 
systems such as medium and longer range missiles, focused on 
Israel initially, but also on Turkey and Jordan potentially.
    And it will sooner or later use those forces to roll up 
our, as you said, moderate friends and allies, such as the PYD, 
such as the Free Syrian Army element that we are still working 
with in the south of the country.
    The goal of Iran and Assad is to totally retake all 
territory in Syria and put it under Assad's brutal rule. Iran 
will support that. Russia has some doubts, but in the end will 
support it unless they fear that they will face a military push 
back from us, and so far they have seen no sign of that. In 
fact, we haven't always pushed back from the Iranians. We 
abandoned several sites where we were present on the ground 
with our troops and some of our allies close to the Iraqi 
border a few weeks ago.
    Mr. Kinzinger. All right. Thank you. At risk of going over 
my time, I will just yield back.
    Chairman Royce. Mr. Bill Keating of Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman. I think it is 
important to note that of the three witnesses we have in front 
of us now, selected from both sides of the aisle, all three say 
we should not walk away from the plan. I think that is 
important to emphasize right now. There are areas of agreement 
where we go from here.
    There is a political narrative I am concerned about right 
now, and that is the fact that if the President fails to 
certify the plan, and then Congress doesn't do anything for 
that period, then no harm, no foul. Well, evidently, a lot of 
people don't agree with that, including the Secretary of 
Defense.
    I would like to ask, Mr. Sullivan, what is the impact of 
that? This idea that there is no harm in this? It sends a 
message. It is a political message. You know, I don't think it 
is only dangerous, it is foolhardy. I would like your comments 
on this.
    Mr. Sullivan. I agree with you that it is dangerous. It is 
dangerous because it is destabilizing, because it creates 
doubt, and it creates uncertainty as we go forward. And it 
makes all of our partners think you know what, the United 
States isn't actually committed to seeing this thing through. 
And from my perspective, working to address issues not dealt 
within the deal, whether it is ballistic missiles, or working 
on what happens after some of these provisions expire in the 
out years is much easier to do with a set of partners who have 
confidence in your good faith and your willingness to hold true 
to your word, where Iran is the one with the burden of proof, 
then where they are sitting there constantly worried that at 
any moment you could walk away.
    Mr. Keating. And you are playing with fire, if I may, 
because in that period there could either be a coincidence of a 
major incident in that area, or it could be orchestrated to 
occur, and that could affect the way Congress deals with that 
60-day period. And that is dangerous as well.
    Mr. Sullivan. I mean, there is a huge amount of--a range of 
unpredictability here. Let's imagine that we have a 
circumstance in which the President declines to certify, it 
goes to Congress, Congress doesn't act, the President is 
unsatisfied with the state of play, and now all of a sudden he 
is thinking, okay, what is my next move? And then that next 
move could be a further unraveling, and so forth on down the 
line.
    Or for that matter, he decides, as I think some suggested, 
I am going to unilaterally rewrite the terms of the deal 
myself. And I think that would be a way of--a sure way to end 
up collapsing the deal over time without the rest of the world 
joining us and then reimposing pressure.
    So I agree with you that it is--playing with fire is a very 
good term.
    Mr. Keating. Thank you. And I want to commend the 
witnesses, too, because, I think--the ones that remain here, in 
their testimony, at least they are offering alternatives. They 
are saying, you know, I don't want us to walk away, but there 
are things we should do. And that is the precise discussion 
that we should be having. And that is my concern.
    Now, so many other people have commented, even with some of 
the questions, criticizing the situation, even outside the 
agreement, which isn't what we are here about today. But, also, 
it is a very narrow agreement. But, also, not offering where do 
we go from here, which invariably goes two ways when you unpeel 
the onion.
    It either says, we are going to use our sanctions by 
ourselves, unilaterally, trying to influence our European 
allies on this that would walk away or there is military 
intervention. Those are the two main alternatives that are 
left.
    I would like Mr. Sullivan to comment on 1996 with the ISA. 
What happened when the U.S. was left with that alternative of 
saying, we don't want Iran to grow its energy program the way 
it is now, so we are adopting these strong financial sanctions 
in place. Explain to us what happened then when we tried that 
as one of the two major alternatives left?
    Mr. Sullivan. So in 1996 when the United States passed the 
Iran Sanctions Act, the Europeans--and part of that was about 
trying to stop European companies from investing in Iran or 
doing deals with Iran. The Europeans passed protective 
measures, basically telling their companies, don't worry about 
U.S. sanctions, we will have your back, you go ahead. And, in 
fact, over the course of both Democratic and Republican 
administrations, the ISA was never really effectively enforced 
against Europeans companies.
    We developed an entirely different strategy over the course 
of the past several years with help from this committee, but 
that strategy relied on a simple predicate, which was that the 
world could trust the United States. That the United States was 
going to be the constant source of predictability and strength, 
and that Iran was the one that had the spotlight shown on it. 
And we have reversed that right now in a way that is making the 
Iranians walk around with a smile, and is making Europeans 
think, we don't necessarily have to listen to Washington.
    Mr. Keating. I want to thank you for mentioning the 
committee, because I do think we have played a role in 
developing a strategy. And as I have listened to all of our 
witnesses here, I would say this. We are looking at one of the 
real problems here. It is not in the confines of this deal, it 
is the lack of an overall strategy and resolve going forward 
that we can work on and be strong on, have resolve on as a 
country, working with our allies, that is the problem we have 
now. That is what we will work forward in a bipartisan way in 
this committee, and that is what is lacking right now with the 
administration.
    I yield back, Mr. Chairman.
    Chairman Royce. Thanks, Mr. Keating. We go to Mr. Lee 
Zeldin of New York.
    Mr. Zeldin. Thank you, Mr. Chairman. Earlier, Mr. Sullivan, 
you said this deal is working as intended. You spoke of how 
this deal is providing the IAEA access to Iran's military 
sites. I would agree that is an important part of the deal to 
provide the IAEA access to Iran's military sites. Is Iran 
allowing the IAEA access to its military sites?
    Mr. Sullivan. No. So far under the deal, Iran has----
    Mr. Zeldin. Your answer is no. Thank you. So there is I--
don't know what exactly you meant by this deal is working as 
intended. I think we would both agree that it is important for 
the IAEA to have access to Iran's military sites. And I 
appreciate you admitting to the fact that the IAEA--that Iran 
has not allowed the IAEA access to its military sites. But then 
later on in your testimony----
    Mr. Sullivan. I am happy to answer that, if you would like.
    Mr. Zeldin. You did by saying no. So later on in your 
testimony you are then going after President Trump. You are 
saying--you actually said, it is President Trump's fault that 
IAEA is not allowed to have access to Iran's military sites, 
when the IAEA has never had access to Iran's military sites. 
But you are here, sir, blaming President Trump for not having 
access to something we never had access to.
    President Obama said this deal is not built on trust, it is 
built on verification. Have you read the verification agreement 
between the IAEA and Iran?
    Mr. Sullivan. I have not read it. No. I have read the deal, 
though, which says very clearly----
    Mr. Zeldin. You have not read the verification agreement 
between the IAEA and Iran. And when Secretary Kerry was here, 
he admitted that he hadn't read the verification agreement 
between the IAEA and Iran either. So a deal that is built on--
not on trust, but built on verification, the leaders of our 
government never read what the verification agreement was. An 
entire deal was built on verification.
    What we have learned is that----
    Mr. Sullivan. I wasn't----
    Mr. Zeldin. My time, not yours. We have learned that Iran 
is inspecting some of their own nuclear sites. We have learned 
that they are collecting some of their own soil samples. You 
said earlier that 98 percent of Iran's enriched uranium was 
shipped out of the country, correct?
    Mr. Sullivan. I did.
    Mr. Zeldin. Where is the uranium?
    Mr. Sullivan. The uranium is in Russia.
    Mr. Zeldin. How do you know that?
    Mr. Sullivan. Because there is a supply and accountancy 
procedure to ensure where the uranium is collected in Iran, 
moved, and then stored.
    Mr. Zeldin. Where in Russia is it?
    Mr. Sullivan. Sitting here today, I couldn't tell you.
    Mr. Zeldin. Okay. Because in my conversations with the 
people who are in charge of knowing that, I don't know where in 
our government we have anyone who has any idea where the 
uranium is, but I appreciate the fact that you, sir, you know 
where the uranium is today.
    For my colleagues who opposed the deal very strongly, and 
are now indicating that we should uphold it because it is not 
perfect. I was here witnessing all of the statements, the 
testimony about why my colleagues on the other side of the 
aisle were opposing the Iran nuclear deal, and they were not 
opposing it because it was not perfect, they were opposing it 
because it is deeply flawed.
    Mr. Smith earlier asked you, Mr. Sullivan, how much money 
went to terrorism, and you responded that the bulk goes to 
domestic purposes. I would offer that when you provide $100-
$150 billion worth of sanctions relief, and we ask you a very 
specific question, how much goes to terrorism. We are not 
asking for where 60 percent or whatever the other number is, a 
bulk of gets defined as, going to domestic purposes. The 
question is, how much is going to terrorism?
    And the question was one that was worthy of an answer. And 
standing here and calling for an improved Syria strategy to 
combat Iranian aggression. I would offer that if you, sir, and 
the Obama administration was that serious about combatting 
Iranian aggression, we should not have been providing $150 
billion of sanctions relief to the Iranians to be able to 
conduct all of their bad activities.
    Their bad activities--by the way, this is a deal we are 
talking about, we never even asked for a signature. Put that 
aside. When 10 of our Navy sailors are held hostage, they are 
embarrassed. When they are released, Secretary Kerry says, 
thank you. And he says, it is because of the Iran deal that 
this went so smoothly.
    With Iran financing terror, over-throwing foreign 
governments, illegally test-firing intercontinental ballistic 
missiles, chanting, death to America, calling Israel the little 
Satan, America the great Satan. I would say that it was the 
wrong answer for us to be propping up the wrong regime with a 
jackpot of sanctions relief, and that we should be doing our 
part as Congress and as the United States, as the leaders of 
the free world, leading and fixing this, and turning this into 
a reasonable deal, not one that is very one-sided, and one 
where we got ridiculously played at the table. I yield back.
    Chairman Royce. Okay. David Cicilline of Rhode Island is 
next.
    Mr. Cicilline. Thank you, Mr. Chair. I would like to give 
Mr. Sullivan an opportunity to answer the question he wasn't 
permitted to answer to Mr. Zeldin on the military site.
    Mr. Sullivan. Right. So the deal expressly states that the 
IAEA, if they have a basis to believe that there is illicit 
nuclear activity occurring at any military--any site in Iran, 
including any military site in Iran, that they can get access 
and that Iran cannot stop them. That if the United States and 
the Europeans and the IAEA come forward and decide, we need 
access to this site, Iran can't say no.
    Now, in the last 2 years, the United States actually hasn't 
gone to the IAEA and presented a particular military site, and 
said, I want to get access to that. But what Nikki Haley did 
was go and generally have a conversation with the IAEA about 
how to do this. I believe that American policy and American 
strategy could yield access to Iran's military sites under this 
deal. And I have no reason to believe, based on what has 
happened in the last 2 years, that that is not the case.
    Mr. Cicilline. Thank you. Mr. Sullivan you also say in your 
written testimony, that because the administration has spent so 
much time focused on the--will he or wouldn't we certify 
debate--and I will add something in this sort of reality TV 
show sort of way, that it has resulted in the administration 
and key components of the intelligence and security communities 
taking their eye off the ball on the larger questions, or the 
broader Iranian threat.
    And so I would really like you to focus on that point. We 
can all sit here and posture about what we think would be a 
better provision, and if it were just up to us as individual 
Member of Congress, I would put this provision or that, but 
that is not what an international agreement with five or six 
other countries produces.
    So I think it is really fruitful to think, what should we 
be doing going forward to respond in a serious way to Iranian 
aggression in the region. Secretary Kerry, in fact, when he 
testified before this committee said, one of the advantages of 
this agreement is we can put an end to the nuclear threat of 
Iran so that we will be in a stronger position to push back 
aggressively in a variety of other contexts.
    What specifically can we or should this administration be 
doing with respect to that? And, secondly, is it not the case 
that this agreement permanently forecloses Iran from having a 
nuclear weapon, by its own terms?
    Mr. Sullivan. There is a permanent ban on Iran acquiring a 
nuclear weapon. In the deal, there is a permanent ban on 
weapons-related nuclear activity in the deal. And there is a 
permanent provision for an inspections regime to monitor that 
in the deal. There are expiring nuclear restraints. Those are 
things we can work to deal with, but we should work the deal 
with them by committing to the deal and moving forward with our 
allies.
    On the issue of the region more generally. I think Syria, 
for me, looms largest because it looms largest in the Iranian 
strategic calculus, and because it is a moral and humanitarian 
catastrophe to boot. And what we have seen over the course of 
the past several months is effective action against ISIS 
building on the Obama administration strategy, but no 
meaningful thought given to what comes next. And as a result, 
as Ambassador Jeffrey and others on this panel have made clear, 
the Iranians are on the march in Syria today to a much more 
significant degree than they even were 1 year ago.
    And Israeli concern about that is reaching new heights, to 
the point where Israeli leaders are publicly warning about how 
this threat is metastasizing. So I think that we need to be 
sitting with our partners across the region, including Israel, 
as well as our European allies and others, and thinking about a 
broad multi-dimensional strategy that includes everything from 
further economic pressure to how we are postured in the region, 
to intelligence led operations, interdictions of weapon 
shipments, on down to line.
    And I would simply submit that having put a lid on Iran's 
nuclear program so that today we do not have to worry about 
them racing for a bomb because of this deal, we do have the 
opportunity to focus on this, and that is where we should turn 
our focus.
    Mr. Cicilline. And to follow-up. And do all of that work, 
the word of United States, our credibility in terms of honoring 
international agreements and continuing relationship with our 
allies in the region will be key to that. And so I think the 
point you made earlier is an important one.
    Mr. Albright, you said that there is legislation that could 
be imposed unilaterally by the United States that would fix the 
deal, as you suggested. I would like to know what you think 
Congress could do unilaterally to an international agreement 
that would fix the deal?
    Mr. Albright. Well, let me answer that in a different way. 
I think you have a problem with INARA. INARA does not certify 
compliance with this deal.
    Mr. Cicilline. With all due respect, sir, I only have a 
limited time. You made the statement in this hearing that 
Congress could unilaterally take an action to fix the deal. I 
am asking you--you are testifying before this hearing. What in 
fact could Congress do unilaterally that would fix 
international agreement?
    Mr. Albright. The same way it created INARA, it can fix 
this deal. And I think that the purpose of that is to 
straighten out one fundamental problem that is tough for this 
administration, is that--the INARA makes it look like President 
Trump is certifying compliance with this deal. INARA doesn't 
actually do that. But it is putting it in a position to defend 
an intractable position. And that Congress needs to fix the 90-
day certification requirement.
    It needs to define what a material breach is. We use 
violation because we feel any--no violation is too small to 
correct. The language of material breach and noncompliance 
defined in INARA is unworkable. I would argue, actually, that 
the excess centrifuge numbers----
    Mr. Cicilline. Mr. Albright, do you think that the Congress 
of the United States has the ability to unilaterally change the 
terms or meaning of terms in an international agreement? You 
don't need to answer that question. The answer is, of course 
not.
    Mr. Albright. First of all, this is not an international 
agreement. The nuclear deal was never signed. It is more of--
you can't call that an international agreement, first of all. 
The other thing is, if you look at what----
    Mr. Cicilline. What would you call it?
    Mr. Albright. On the conventional arms, and on the 
ballistic missiles, the Congress is actually redefining U.S. 
policy on the bans, the 5-year and the 8-year ban in 2031. They 
are setting up a situation where, if the ban ends, let's take 
the conventional arms transfer restrictions end at 5 years in 
the U.N. Security Council Resolution, a country A and goes and 
sells heavy armaments to Iran, they will be sanctioned.
    So the United States is already under Congressional 
leadership rewriting the bans on conventional and ballistic 
missiles.
    Chairman Royce. Time is expiring. I think we had better go 
to Ann Wagner of Missouri.
    Mrs. Wagner. Thank you, Mr. Chairman, for holding this 
hearing.
    As North Korea captures the world's attention, we must, I 
would make the point here, remain vigilant in responding to 
Iranian aggression throughout the Middle East. General Wald, 
who, I am sorry, has left, I know that he wrote that the Iran 
deal positioned Iran on a trajectory to become possibly more 
challenging than North Korea. Ambassador Jeffrey put it well in 
his written statement: The U.S. must set clear final goals for 
our Iran policy and make those evident and persuasive to all 
those at home and abroad.
    Ambassador Jeffrey, there may be as many as 60,000 Iranian-
backed troops in Syria. It is no secret that the IRGC Quds 
Force and affiliated militias are taking over areas from ISIS 
on behalf of the Assad regime. Such activities are not in the 
interests of the United States of America.
    How should U.S. policy change to counter the growing role 
of Iranian-backed forces that target Syrian civilians, 
undermine regional stability, and threaten U.S. security 
interests?
    Ambassador Jeffrey. Well, first of all, Congresswoman, we 
have a U.N. Security Council resolution, 2254, and a process to 
deal with the internal situation in Syria, because when that 
was put together by the last administration, I think 2012, 
there was an understanding by everyone, including even Russia 
and Iran, which are a part of this process, that that internal 
situation is a concern for people in the region and for the 
international community, not just for Mr. Assad and the people 
of Syria.
    So we need to build on that and restore the centrality of 
that process, and it needs to be backed with an American 
presence in Syria. The problem is, under the Authorization for 
the Use of Military Force that has to be to be fighting 
terrorists.
    But we are never going to completely wipe out ISIS and al-
Qaeda there. And there is a good argument to be made to keep 
limited forces to protect those Syrian opposition in the north 
and in the south while we try to sort this thing out 
politically. That is pushback against Iran.
    Mrs. Wagner. General Wald also raised an important military 
recommendation, and I would offer this question to anyone who 
would like to speak on his behalf or about it.
    Would you suggest forward deploying our Aegis-equipped 
missile defense fleet to our existing bases in Gulf countries? 
And how can the U.S. better coordinate with Israel and the Gulf 
countries to establish a comprehensive missile defense system?
    Ambassador.
    Ambassador Jeffrey. We have four Aegis ships already in the 
Mediterranean, one of which is on station all of the time off 
of Israel. We have THAAD systems and our allies have THAAD 
systems and Patriots and phased array radars in the Gulf and in 
Israel. There is a phased array radar in Turkey, and there are 
SM-3 missiles designed to intercept Iranian rockets in Romania 
and in Poland. So there is already a very robust----
    Mrs. Wagner. You feel confident in our coordination with 
Israel and our others?
    Ambassador Jeffrey. I think on that particular matter, at 
this point, yes. But I yield to General Wald's military advice.
    Mr. Sullivan. I would just add one point, which is I think 
this is one of those areas, and maybe there aren't as many as 
there used to be, where there is actually real bipartisan 
cooperation on the ballistic missile issue and missile defense 
generally in the region. I think the Obama administration and 
the Trump administration have taken very similar lines on this, 
one building on the last.
    It is a constantly evolving threat, so our posture and our 
cooperation with our partners has to constantly evolve. But I 
actually think we are on a pretty decent track on this issue.
    Mrs. Wagner. Ambassador Jeffrey, you wrote that U.S. 
military and diplomatic resources should be shifted away from 
ISIS and toward Iran. Paying more attention to Iran 
necessitates paying more attention to Iran's activities in Iraq 
and Syria.
    Why do you think the administration hasn't designated proxy 
forces backed by Iran and Hezbollah as terrorist organizations?
    Ambassador Jeffrey. I think one reason is force protection. 
It fears that, particularly in Iraq but also in Syria, that the 
Quds Force, as I mentioned in my testimony, will respond, and 
they will respond. It is just that we shouldn't be in the 
Middle East if we are worried about people shooting at us. We 
have had a lot of experience with Iran shooting at us, and the 
answer to that is to shoot back.
    But I think that is part of it. The other thing is there 
really is almost an obsession with the ISIS fight. When the 
Kurds declared their independence, the statement out of the 
U.S. was they should stop doing that because this interferes 
with the fight against ISIS. That fight is almost over right 
now.
    Mrs. Wagner. Thank you. I am out of time.
    Mr. Chairman, I yield back
    Chairman Royce. Thank you.
    We go to Dr. Ami Bera of California.
    Mr. Bera. Thank you, Mr. Chairman.
    Mr. Sullivan, you were integral in negotiating the Iran 
nuclear deal. Is that correct?
    Mr. Sullivan. Part of. I always hate to say ``integral.''
    Mr. Bera. Part of the team.
    Mr. Sullivan. I was part of team. I was part of the team 
that began the negotiations that arrived at the interim deal 
and then that worked toward the final agreement. Yes, I am a 
proud member of that team.
    Mr. Bera. Great. You would state that the ultimate goal of 
the deal was to reduce the Iran nuclear threat?
    Mr. Sullivan. Correct.
    Mr. Bera. Would you say that the deal has reduced the 
nuclear threat given what was prior to the deal?
    Mr. Sullivan. I think there is no doubt about that. And, 
indeed, if you ask the chief of staff of the Israeli Defense 
Forces, he would say that the nuclear issue has gone down the 
list of strategic threats to Israel today compared to where it 
was before the deal.
    Mr. Bera. Ambassador Jeffrey, would you agree with that, 
just on the nuclear issue?
    Ambassador Jeffrey. For a temporary period of time. And 
there I would disagree with Mr. Sullivan. For a 10-year period, 
yes. But no less an authority than Barack Obama said after 10 
years, in off-the-cuff comments, they are going to be on their 
way to, if they want to, a nuclear capability.
    Mr. Bera. Okay. But at today's point in time, the threat is 
lower. At the time the deal was being negotiated, Mr. Sullivan, 
what would, in open source estimates, what would breakout 
capacity be? How close was Iran to breakout capacity?
    Mr. Sullivan. The time for Iran to acquire one weapon's 
worth of weapons grade uranium before the deal was done was a 
matter of weeks, at the most 2 to 3 months, but probably a 
matter of weeks, and shrinking.
    Mr. Bera. So would walking away from this deal, do you 
think that would reduce or increase the nuclear threat to Iran?
    Mr. Sullivan. Well, let's say if we walked away from the 
deal--right now we have put Iran in a position where we have 
extended that breakout time out beyond a year. If we walked 
away from the deal and they began reinstalling the centrifuges 
that have been dismantled, working again to build that 
plutonium reactor that we have disabled and neutralized, that 
over the course of the next couple of years they would be in a 
position incredibly rapidly to move to a nuclear capability.
    And our capacity to stop them from doing so by reimposing 
the sanctions that were on before, if we are the ones who walk 
away from the deal, would be very limited, because the rest of 
the international community would say: ``What the heck are we 
coming along with you for on sanctions? The whole point of 
doing this was to get the very deal you just walked away 
from.''
    Mr. Bera. And in your assessment, with our hands full 
currently on the Korean Peninsula, it would be a pretty unwise 
time diplomatically to try to engage with two nuclear threats, 
correct?
    Mr. Sullivan. You know, what is interesting about what 
North Korea presents as an example today is what happens when 
you don't have good choices, when you don't have an opportunity 
to produce the kind of deal that we did with respect to Iran. 
And so today we are faced with a rapidly accelerating North 
Korean capability and a completely unstable situation.
    We walk away from the deal, we produce a very similar 
dynamic in the Middle East, and all of a sudden you are dealing 
a nuclear crisis in the heart of East Asia and a nuclear crisis 
in the heart of the Middle East, both of which the United 
States needs to manage.
    The crisis in North Korea is one that has been generated by 
Kim Jong-un. If we walk away from this deal, we would be 
largely responsible for the creation of that nuclear crisis 
today in the heart of the Middle East.
    Mr. Bera. And given our strategy on the Korean Peninsula is 
one of increasing pressure, increasing isolation, in the hopes 
of getting to engagement and reducing tensions with North 
Korea, would decertifying this deal make it easier to get a 
North Korean agreement or would it reduce our ability to find a 
diplomatic solution to the Korean Peninsula?
    Mr. Sullivan. I think any fair reading would say it would 
make it harder for us to get a deal in the North Korean 
context. How much harder is a question that we can debate. But 
the idea that the Chinese would say, ``Oh, you know what? The 
fact that you are decertifying this deal and potentially 
walking away from it, that makes us more confident that we 
should join you in something we haven't wanted to do, which is 
sanctioning North Korea, because we trust that you are going to 
end up agreeing to something in North Korea,'' the same thing 
goes for the North Koreans themselves.
    So I think the notion that if the United States walks away 
from the Iran deal that it would be easier to get a deal with 
North Korea is not based on either logic or fact.
    Mr. Bera. I would agree with that.
    Mr. Albright. Can I add something real quick? I don't think 
it will affect our North Korea deal at all if President Trump 
decertifies.
    Mr. Bera. I think it will affect the reliability of our 
word.
    Mr. Albright. And people shouldn't conflate decertification 
with walking away from the deal. They are two different things. 
And I think Ambassador Haley laid out in a speech several weeks 
ago that there are various pillars that need to be addressed 
and considered. And I think thinking that decertification would 
affect the North Korea deal, I think, is lunacy.
    Mr. Bera. But on the issue of reducing the nuclear threat, 
the deal has accomplished that. Now, we can speculate where we 
are going to be 10 years from now.
    The concern here is we have given the administration the 
tools to address what we are really concerned about, the 
ballistic missile issue, cracking down on Hezbollah. We, 
through this committee, have given the administration some 
tools that they are not currently using. I would ask the 
administration to use those tools.
    Mr. Albright. And I would add too, there is a lot of 
agreement on this panel, at least I hear. The sunsets are a 
real problem. I hear it in the committee. They are a real 
problem. What I am saying, and I think there is support in the 
Trump administration, is that we can't wait to deal with those 
sunsets when Iran is a strong, well-armed, powerful regional 
force. We need to deal with it now.
    Chairman Royce. We need to go to Tom Garrett right now from 
Virginia.
    Mr. Garrett. Thank you, Mr. Chairman.
    Chairman Royce. Thank you very much.
    Mr. Garrett. Those who do not know history are condemned to 
repeat it, and this has all played out before almost 
analogously. I will start with a little bit of a soliloquy, 
because I am so disgusted.
    The talk of, number one, the United States credibility on 
the global stage as it relates to one with whom an entity can 
engage in deals, I think that the Iranian credibility is 
certainly far more in question than the United States 
credibility insofar as the stability of our Nation and its 
reliability internationally is well demonstrated over 
centuries, whereas this regime has a record that hasn't been 
touched in this room but spoken to by the people who sit here.
    In 1979 and 1982 and 1996 and 2009 in the Green Revolution, 
people stood up against this regime, and on most occasions, the 
United States sat back and did nothing while they were murdered 
by the Quds Forces, who are their very cousins and brothers and 
sisters, in the streets in Iran, and we did nothing.
    And with all due respect, Mr. Sullivan, as Daniel Patrick 
Moynihan once said: You are entitled to your own opinions, but 
you are not entitled to your own facts. Don't talk about how 
there is bipartisan agreement on the antiballistic missile 
defenses in Europe, and particularly Poland, when the previous 
administration's first action as it relates to foreign policy 
was to withdraw from a commitment to defend Europe and the 
Poles from the very Iranian missiles that we contemplate today. 
That happened.
    Now, let's go back in history. I heard Mr. Sullivan state, 
Mr. Chairman, that if the IAEA has indications that there are 
violations, that they have a right to inspect. Really? 
Worcester v. Georgia. When Andrew Jackson was President, he 
anecdotally is credited with saying that Justice Marshall has 
made his ruling, let's see him enforce it. The IAEA and what 
army will go in and verify when there have been violations?
    You know where the uranium is? That is news, that is 
newsworthy, because nobody else does. And ironically, if we 
credit the uranium with being in Russia, it would be an 
interesting departure from the individuals who don't trust 
Russia on anything except, apparently, where the uranium 
fissile material might be. And I guess that is convenient.
    But as it results to presuming to operate in a world where 
individuals keep their word, understand that the current regime 
of Iran has burned the effigy of every single President of the 
United States since Carter and literally depicted a lynching of 
our first African-American President in 2015 while this deal 
was being finalized. And they reference the Great Satan, and 
they reference the Little Satan, and they chant, ``Death to 
America,'' and they talk about the death to the devil's 
triangle, the United States, the U.K., and Israel.
    And if that is not bad enough, if we adjust for population, 
the murder of Iranian citizens by the current regime would be 
tantamount and comparable to the deaths experienced by the 
United States during the entire Second World War.
    So I am very curious, in fact, I am delighted to have 
someone here who claims credit for having negotiated the JCPOA, 
I am sorry--how it is that we talk about the international 
community not being willing to agree to harsher sanctions as it 
relates to ballistic missile development when U.N. Security 
Council Resolution 1929 of 2010 read, and I quote, ``Iran shall 
not undertake activity related to ballistic missiles''--I think 
at least Mr. Sullivan went to a pretty prestigious law school--
and U.N. Security Council Resolution 2231 of 2015, which 
mirrors the JCPOA, reads, ``Iran is called upon not to 
undertake activity as it relates to the development of 
ballistic missiles.''
    It strikes me that if the U.N. Security Council agreed on 
Resolution 1929, which said, ``shall not,'' that we have 
evidence the international community will agree to stronger 
sanctions, which will prohibit the delivery systems of nuclear 
weapons from being developed by the Iranians, and it has 
already been done, and the JCPOA quite literally, in moving 
from ``shall not undertake'' to ``is called upon not to 
undertake,'' created more latitude.
    Next, everyone that knows about this issue knows that the 
long pole in the Iranian tent is the IRGC, that the IRGC 
controls the bulk of the black economy in Iran, probably over 
90 percent, and, in fact, funnels a vast, vast quantity of the 
real economy in Iran through its own coffers.
    And so I heard someone state that the ISA was never fully 
enforced. And I have created a paradigm, because I am not that 
smart, but this seems to make sense to me, that I would wager 
that if we said to our allies in particular--and I will call 
out some European nations if anybody wants to ask for 
specificity--that they can choose between doing business with 
Iran, and specifically the IRGC, or us, and we put some teeth 
in the sanctions, that we can watch this monstrous, murderous 
regime, which has repeatedly called for the destruction of 
everyone in entire nations, whither on a vine, and the millions 
of Iranians who have been displaced against their will and the 
hundreds of thousands who have been murdered might then be 
justified, and then we can know that there is hope for peace 
and no nuclear exchange with a radical, defiant Iranian regime.
    I apologize for running over.
    Chairman Royce. Thank you, Mr. Garrett.
    We now go to Robin Kelly of Illinois.
    Ms. Kelly. Thank you, Mr. Chair.
    I, too, agree walking away from the JCPOA would weaken the 
United States position to increase pressure in the future while 
endangering any future nonproliferation agreements that the 
U.S. might seek to make.
    As you know, this committee recently passed legislation 
that cracked down on Iran's nefarious actions. Mr. Sullivan, 
how should the U.S. continue to put pressure on Iran while 
adhering to the JCPOA? And is there a red line for Iran where 
certain sanctions would push them out of the agreement?
    Mr. Sullivan. Just on the second point, on the question of 
red line, to respond to what Mr. Garrett said, the IAEA and 
what army, the fact is that if Iran violates the access 
provisions of the JCPOA, that would be a violation that would 
trigger the reimposition of sanctions, and the United States 
would have the capacity then to marshal the international 
community, because it would be Iran who was violating the deal, 
not the United States.
    So from my perspective, we retain tools under this 
agreement to make sure that Iran stays in compliance. And if 
they violate those terms, I will be the first one to say the 
United States should snap back sanctions, and the deal creates 
the capability for the United States to effectively do that. It 
maintains the sanctions architecture.
    With respect to how we go about dealing with Iran in the 
region, I really do believe this needs to be a whole-of-
government approach. It needs to be multidimensional. It needs 
every aspect of our power, our economic power, military power, 
intelligence, et cetera, working with allies and partners in 
the region, to put increasing pressure on Iran and to raise the 
cost for their destabilizing behavior and their sponsorship of 
terrorism in the region.
    It also means that we need to invest in the defensive 
capabilities of our allies and partners, as the previous 
discussion about ballistic missile defense indicated. I have a 
different view on the issue of Poland, but my answer to Mrs. 
Wagner earlier was about ballistic missile defense in the 
Middle East, where I actually do believe that there has been 
strong bipartisan cooperation, and we should continue that.
    So that is just some of what I think the United States 
should be working on as part of a multidimensional, 
multilateral strategy to push back against Iranian aggression 
in the region.
    Thank you.
    Ms. Kelly. Thank you.
    Ambassador Jeffrey, in your testimony you talked about 
communicating with Iran. Do you believe the President's tweets 
and treating certification like a reality TV show cliffhanger 
are productive ways to communicate? Do you think this is 
helping?
    Ambassador Jeffrey. I think that, when I talk about 
communicating with Iran, I am talking mainly about doing it 
quietly, as we did between Ambassador Crocker and the Iranians 
during the Bush administration and Baghdad.
    The tweets are unique to President Trump. I think that the 
world recognizes that he does it. I don't think they are a 
major problem. I don't think they are a major plus. I think 
they are just there. But they are not a substitute for 
diplomatic communication. I will answer your question that way.
    Ms. Kelly. Very diplomatically. Do either of the two 
witnesses----
    Mr. Albright. If I could go back to another question you 
asked. I think the Director General of the International Atomic 
Energy Agency is asking for guidance because he does not feel 
he has the resources or the authorities to go and implement 
Section T, which would involve going to military sites. It is 
different than saying we have a suspicion of going and we need 
to go. This has to do with more routine verification of bans on 
nuclear weapons development.
    And so I would say there is already a big problem in 
implementing the JCPOA inspection architecture, and the United 
States is going to be called upon to deal with this. Russia has 
already made its opinion clear. It said the IAEA cannot go to 
military sites, should not go to military sites. So we already 
have a problem. And it is beyond what was envisioned in the 
language of the JCPOA.
    Ms. Kelly. Thank you.
    Mr. Sullivan. Just to respond to that. First of all, we 
anticipated the possibility that maybe Russia would say, ``Hey, 
you know, we are not that interested in having the United 
States get into Iranian nuclear sites.'' They don't get a veto 
over that. In fact, if the Europeans and the Americans and the 
IAEA agree that access needs to be granted, the Russians can't 
stop it, nor can the Iranians. That is point one.
    Point two is, the fact that the IAEA Director General is 
seeking guidance from the United States and from the other 
members of the P5+1 on this issue is not in and of itself a 
problem.
    What is a problem is if the United States, rather than 
bringing our partners together and saying, ``Let's work this 
out and enforce the deal, including through military sites,'' 
says, ``We don't really like this deal, this deal stinks, you 
know, screw it.'' That is just going to make it much harder to 
actually effectively enforce this critical provision. And I 
agree with Mr. Albright that access to military sites is an 
important part of the long-term enforcement of the JCPOA.
    Mr. Albright. But the structure of the JCPOA puts an unfair 
burden on the IAEA. If they demand to go to military sites and 
they invoke this clause, then it brings down the entire deal.
    And so I think that it is incumbent upon the P5+1, and I 
would say the United States is leading that, to straighten out 
this issue and actually strengthen the deal's conditions on 
access to military sites. But it isn't put on the IAEA to have 
to ask the question: If we ask to go, do we have to--are we 
really risking bringing down the entire deal?
    Ms. Kelly. Thank you. My time is way up.
    Chairman Royce. Thank you. Thank you, Congresswoman Kelly.
    We now go to Mr. Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman.
    Thank you, panel, for being here. I appreciate you giving 
us great information on this.
    The era of strategic patience as far as the diplomatic and 
negotiating policy or foreign diplomacy I think was a mistake 
of the last administration. It led us to pulling out of support 
of Poland with a missile defense system, led to the Russia 
unnamed army to invade Ukraine, even though we were supposed to 
protect them, and allowed them to annex Crimea. It allowed 
China's aggressive encroachment to the South China Sea as we 
stood by with strategic patience hoping it would go away.
    I am a veterinarian by trade, and when you have benign 
neglect, that is strategic impatience--or patience. Benign 
neglect is when you look at something knowing it will probably 
get better on its own. These things aren't going to get better 
on their own, so we can't have strategic patience.
    My question to you, Ambassador Jeffrey, is the JCPOA, as 
Mr. Sullivan stated, says that the IAEA can inspect any time, 
anyplace. Does that happen?
    Ambassador Jeffrey. As we have discussed at some length, 
not military sites.
    Mr. Yoho. Right. But the military site Parchin in 
particular said--it gave Iran the ability to pick up the soil 
and have it tested. Is that correct? Is that the way I 
understood that?
    Ambassador Jeffrey. On the one IAEA intervention on 
inspection in Parchin, that was what the IAEA negotiated with 
the Iranians.
    Mr. Yoho. Right.
    Ambassador Jeffrey. The IAEA claims that they were 
monitoring that with cameras and all of that. But, of course, 
it raises a really--it looks strange, let's face it.
    Mr. Yoho. It would be analogous to a drug addict bringing 
in a urine sample that he collected himself in private and 
saying, ``Here is my sample.''
    Ambassador Jeffrey. It is not quite that bad. I will stand 
with it was a strange formulation.
    Mr. Yoho. It is a stretch.
    Mr. Albright, is the overproduction of heavy water allowed 
under the JCPOA?
    Mr. Albright. There is a cap of 130 tons.
    Mr. Yoho. And they have bypassed that twice.
    Mr. Albright. Yeah. And there is also--Iran has exploited 
a--what I guess you would call a loophole, that they have been 
able to take overage of heavy water and deposit it under their 
control overseas. And so that is another problem in the deal, 
is that Iran has exploited loopholes.
    Mr. Yoho. So we should talk to somebody that negotiated 
that deal, how that loophole got here.
    Mr. Sullivan, do you want to explain how that happened?
    Mr. Sullivan. How what happened?
    Mr. Yoho. That there was a loophole that allowed Iran to 
overproduce heavy water and that they could store it and 
monitor it on their own. Is that what, Mr. Albright----
    Mr. Sullivan. It is under accountancy and monitoring by the 
IAEA, meaning that they do not have the----
    Mr. Yoho. In Russia, right?
    Mr. Sullivan. I am not sure where the heavy water is 
stored.
    Mr. Albright. In Oman.
    Mr. Yoho. But they have overdone that twice, and that is in 
disagreement with the JCPOA. Is that?
    Mr. Albright. I think if you had a strict interpretation 
terms of it, I think yes.
    Mr. Yoho. Okay. Has Iran built and operated more advanced 
centrifuges than allowed? And has it misused the quality 
assurance limitations to conduct banned mechanical testing of 
advanced centrifuges?
    Mr. Albright. Yes.
    Mr. Yoho. All right. And that is in violation of the JCPOA, 
right?
    Mr. Albright. Yes.
    Mr. Yoho. All right. And then, you know, I can remember the 
past administration, and John Kerry sitting right here, that no 
deal would be better than a bad deal. And they are already in 
violation of so many things on this. This is a bad deal. And we 
are talking about if we don't stand up to this.
    You know, we are used to a strategic patience from the last 
administration. What we have now is a Commander in Chief that 
says what he means, and he is going to stand up. And the world 
isn't used to this, the world community. But we have to have 
somebody willing to do that, because this will strengthen our 
negotiation with North Korea.
    Ambassador Jeffrey, do you think so?
    Ambassador Jeffrey. I don't think we have a negotiation 
with North Korea. I think we have a military confrontation with 
North Korea. I think these two issues are totally separate. I 
don't think----
    Mr. Yoho. I agree. But I hope we don't have a--you know, 
our goal is not to have a conflict. But if we come to the table 
weak and we don't show resolve, we have a weakened hand, and we 
won't get anywhere in negotiations.
    Ambassador Jeffrey. Very quickly, because I have wanted to 
say this at several points. Walking out of an agreement is a 
perfectly legitimate diplomatic activity.
    Mr. Yoho. I agree.
    Ambassador Jeffrey. It doesn't mean that we are a bad 
person or that nobody trusts us anymore.
    Violating an agreement that you claim you are adhering to 
is very different. We walked away from the ABM Treaty and 
international relations survived.
    I think that North Korea will judge us on the basis of how 
strong we are deterring Iran across the board, period.
    Mr. Yoho. And you got out exactly what I wanted to hear. 
Thank you all for your time.
    I yield back.
    Chairman Royce. Thank you, Mr. Yoho.
    We go now to Mr. Brad Schneider of Illinois.
    Mr. Schneider. Thank you, Mr. Chairman. And thank you for 
having this meeting.
    To the witnesses, thank you for sharing your perspectives, 
but also the endurance of staying here for all this. I greatly 
appreciate it.
    Let me echo the earlier remarks of the chairman and ranking 
member in saying that while I opposed the JCPOA, now that it is 
in place I believe we have to aggressively and rigorously 
enforce it.
    But as we enforce it, it is vital that we acknowledge that 
the JCPOA, like any agreement, has inherent risk, but that this 
deal in particular has serious shortcomings and gaps, including 
but not limited to the sunset provision.
    The urgent responsibility of our government, in conjunction 
with our European partners and our regional allies, is to 
develop the comprehensive strategies and commit the necessary 
resources to work to close the gaps and reduce the risk. I 
believe we must clearly and fully articulate as a matter of 
national policy that the United States will never allow Iran to 
have a nuclear weapon and that we will aggressively work to 
confront Iran's malign activities in the region and around the 
world.
    These are clearly topics for a much longer exchange than we 
have time for with the 5 minutes today. I only have a few 
minutes, so let me turn to a couple of very focused questions.
    First, in the context of the JCPOA, do you believe Iran has 
changed its ambitions to have a nuclear weapon, Ambassador 
Jeffrey?
    Ambassador Jeffrey. I believe it has always had that option 
open. They were very close to a weaponization program until 
they stopped it in 2003. They are ready to turn that on again 
when they deem it necessary or useful.
    Mr. Schneider. Mr. Albright.
    Mr. Albright. I think they are, under the current 
conditions, extended. Yes, I think they will seek nuclear 
weapons.
    Mr. Schneider. Mr. Sullivan.
    Mr. Sullivan. I think the way that Ambassador Jeffrey put 
it is right. They have wanted to maintain the capability. They 
still want to maintain the capability. And part of what a 
diplomatic solution has to do is to deny them the opportunity 
to exercise it.
    Mr. Schneider. We will go the other way. Has Iran moderated 
its regional goals in the context of the JCPOA?
    Mr. Sullivan. No, it has not, although I would like to say 
something that I have wanted to say for much of the hearing.
    Iran was aggressive before the JCPOA. You guys held 
multiple hearings on that before 2015. It was aggressive during 
the negotiation of the JCPOA, and it remains aggressive. I do 
not believe that money has been the major limiting factor to 
Iran's aggression, it has been opportunity, and they see more 
opportunity in the region now than they did before.
    Mr. Schneider. Mr. Albright.
    Mr. Albright. No, I don't think their behavior has 
moderated.
    Mr. Schneider. Ambassador Jeffrey.
    Ambassador Jeffrey. I think it has gotten worse. I can't do 
a cause-and-effect specifically with the agreement, but it has 
definitely gotten worse. They feel more liberated to do what 
they want.
    Mr. Schneider. Okay. So the broad question is, will the 
United States withdrawing from the JCPOA at this time help or 
hurt our goals of stopping Iran from getting a nuclear weapon 
and thwarting Iran's malign designs and regional goals?
    Mr. Albright. I think it is an interesting and important 
question, and certainly the administration has been wrestling 
with this, that let's say you just abrogate the deal. I 
personally believe that is not the best way forward. But there 
is an argument for those who say abrogate the deal that you can 
actually deal with this situation again. You can repair 
relations with the Europeans after you have reimposed all the 
nuclear sanctions and put them in a dilemma: Do you want to do 
business with Iran or the United States? And then you would 
have a free hand to do whatever you want with Iran.
    So I think there is an argument to abrogate. I personally 
don't want to go down that path, but I think it is something 
the administration has certainly been considering.
    Mr. Schneider. Ambassador.
    Ambassador Jeffrey. Very quickly. I agree with Mr. 
Albright. We are using imprecise terms both in the 
certification and in walking out of the agreement. You can walk 
out of the agreement and, frankly, I think the Iranians and the 
Europeans and Russia and China would continue with it.
    If you walk out of the agreement, try to impose the NDAA 
oil import sanctions on the rest of the world against Iran, or 
you use the snapback provision and bring back all the U.N. 
resolutions, then Iran would move toward that 3 or 4 weeks away 
from a nuclear device very quickly, and that is the risk.
    Mr. Schneider. Okay. Mr. Sullivan.
    Mr. Sullivan. I think it would, as I have said over the 
course of this hearing, put us in a materially worse position 
with respect to the Iranian nuclear capability.
    And I would just reinforce that anyone who casually says we 
can just tell the Europeans and the Chinese and the rest of the 
global economy, ``Either trade with us or trade with Iran,'' 
they should read the top sanctions official Adam Szubin's piece 
in The Washington Post, because, as he says in that piece, 
nobody who is making that argument has sat in his seat to build 
and execute these sanctions regimes. And I think it is not 
nearly as simple as that. And I don't think the sanctions 
architecture would come back.
    Mr. Schneider. Thank you. I am out of time.
    Let me leave one last question for the record to follow up 
in writing. Part of the JCPOA is this additional protocol under 
the Nuclear Non-Proliferation Treaty. How important is the 
additional protocol to making sure Iran doesn't get a nuclear 
weapon during the terms of the agreement and afterwards? And 
would withdrawing from the agreement put the additional 
protocol at risk? And I will leave that for the record.
    Thank you, and I yield back.
    Chairman Royce. Thank you.
    We go now to Mr. Scott Perry of Pennsylvania.
    Mr. Perry. Thanks, Mr. Chairman.
    Gentlemen, what was Iran's original claim regarding their 
nuclear ambitions? Was their original claim they wanted to have 
a nuclear weapons program or it was for domestic emergency 
production and domestic purposes, medicine, et cetera?
    Mr. Sullivan. They have consistently claimed that they want 
this for peaceful purposes, and we believe that that is a false 
claim.
    Mr. Perry. Right. Right. So does anybody on the panel 
disagree with that?
    Ambassador Jeffrey. I have heard senior Iranian officials 
informally say: Okay, we did certain studies on weaponization, 
but it wasn't a weaponization program, so they stopped at that 
level. But, I mean, they know we have them dead to rights on 
the weaponization information.
    Mr. Perry. Mr. Albright, you might as well.
    Mr. Albright. They have always claimed it is a civil non-
nuclear weapons program.
    Mr. Perry. Right. Right. So, I mean, the point to the whole 
exercise of the question is that Iran, at least for the rest of 
us in the world, they are known liars. They are liars. They lie 
about things. They are liars, cheaters, and stealers. And if 
you don't believe me, just ask all these folks back here.
    I am sure, you know, Stalin told the Poles that they didn't 
kill the Poles in the Katyn Forest massacre either. And the 
Poles couldn't prove it, but it doesn't mean it didn't happen, 
right? These folks know what we are dealing with. All of us 
know what we are dealing with.
    Let me ask you this. How many Iranian individuals have been 
sanctioned by our European partners regarding their forays or 
breach of U.N. resolutions regarding ballistic missiles? How 
many individuals have our European allies sanctioned for those 
breaches? Any?
    Ambassador Jeffrey. I know of none. The Europeans did sign 
a joint statement with us stating that the missile activity was 
not essentially in compliance.
    Mr. Perry. But no sanctions, right, no punishment? I mean--
--
    Mr. Albright. You are exactly right.
    Mr. Perry. Mr. Sullivan.
    Mr. Sullivan. I am not aware of it, but I am also not read 
into the strategy to get them to. And part of my argument is 
that should be our focus, not the certification.
    Mr. Perry. Yeah, the strategy. Let me ask you this. How 
many American members are on the IAEA inspection team in Iran 
inspecting these sites?
    Mr. Albright. None.
    Mr. Perry. Zero, right? Well, I have spent some time in the 
military. And to me, you don't look for military nuclear 
weapons down at the power plant. That is probably not where 
they are going to be. They are going to be on the military 
sites. But, unfortunately, we can't inspect the military sites.
    Now, I don't know if it was our genius or Iran's genius, 
but for someone who says that it is a peaceful program dealing 
with medicine and power and so on and so forth, but really, in 
reality, it is a military program, the last place you are going 
to put them is where we are going to find them.
    And with all due respect, Mr. Sullivan, I appreciate your 
good charity and your goodwill to these other people and these 
other nations. But the reality is that Iran wants to be a 
nuclear power, just like North Korea wanted to be a nuclear 
power. And they are going to tell us whatever they want to tell 
us, whatever we are going to believe, whatever the rest of the 
world is going to believe as long as they get there.
    And it strikes me as curious if not just downright scary 
that we seem to be willing to trade security now at some 
level--or stability now at some level--by saying, well, they 
are not going to have it for 10 or 15 years. Everybody in this 
room knows what is going to happen in 10 or 15 years.
    And it also strikes me that maybe that plays right into 
Iran's bigger strategy while they are in Yemen, while they are 
in Syrian, while they are in Lebanon, while they are supporting 
Hezbollah, to coalesce all that territory and all that power so 
that at that time they will be able to spend more money on 
their nuclear weapons.
    Who develops a ballistic missile? Are they going to drop 
leaflets on the United States with that? Everybody knows where 
this is headed. Everybody knows. And for, I don't know, 30 
years, since the Shah was deposed and they took our Americans 
hostage, we have been playing this game of, ``Well, we are 
going to do this, and we hope they will do that. And we will 
sign this agreement. We will have this negotiation.''
    Let me ask you this, Mr. Sullivan. Who signed this 
agreement? It is not a treaty. Who signed this agreement? Did 
Iran sign it?
    Mr. Sullivan. No. As David Albright said before, this isn't 
a treaty. It is not a signed document. It is an agreement----
    Mr. Perry. Right. We know it is not a treaty. It is some 
kind of an agreement between somebody here in the United 
States. Who from the United States signed it?
    Mr. Sullivan. Nobody signed the agreement. The 
administration, the executive branch of the United States, 
signed the United States up the commitments under the deal.
    Mr. Perry. And who from Iran?
    Mr. Sullivan. The Foreign Minister of Iran and the 
Secretary of State of the United States were the ones in the 
room, along with the Foreign Ministers of the P5+1 nations, who 
reached the agreement.
    Mr. Perry. They signed it. Iran signed it.
    Mr. Sullivan. No. As I have said couple times now----
    Mr. Perry. What kind of agreement? We don't have any 
agreement. We can't walk away from an agreement we don't have, 
because they have not agreed to it. They haven't signed it.
    I mean, these people have been lied to over and over again. 
Their families have. We are in agreement on nuclear weapons 
with a lying, cheating nation who wants to kill us and has said 
so. There is no agreement, sir.
    With that, Mr. Chairman, I yield.
    Mr. Sullivan. The issue wasn't their signature. It was 
ours. We didn't want to have sign it because we wanted to 
maintain maximum flexibility.
    Chairman Royce. Thank you very much, General Perry.
    We now go to Tom Suozzi of New York.
    Mr. Suozzi. Thank you, Mr. Chairman. It is so good to have 
spent this time with you.
    I want to thank all of our witnesses so much for their 
attention today and their preparation, the good work that they 
do.
    Let's assume that the JCPOA deal has flaws and 
inadequacies. Let's assume that we will not walk away from the 
deal, especially after we have already given so much benefit to 
Iran in the form of monetary payments.
    Let's assume that the IAEA hasn't done the inspections that 
they need to do. Let's assume that Iran is purveying evil and 
instability and terror throughout the region with their Tehran-
backed militias in Iraq, Syria, Yemen, Bahrain, Gaza, and 
elsewhere. Let's assume all these things for argument's sake.
    I would like each of you to just please tell me what is the 
number one thing we can do to, one, enforce compliance of the 
treaty--not the treaty, of the agreement. And number two, what 
is the number one thing we can do, the number one toughest 
sanction we can impose without violating the deal?
    Ambassador.
    Ambassador Jeffrey. Number one, enforce the agreement. 
Number two, tougher sanctions without violating it.
    Ambassador Jeffrey. Use the joint committee process to 
start challenging Iran on all of these issues that we have 
talked about today, the militarization--rather, the access to 
the military bases, the issues that have been raised by Mr. 
Albright, and some of the other actions that are in 2231, the 
U.N. resolution, and press the Iranians through that process. 
Because at the end of that process there are steps we can take, 
short of walking out of the agreement, that could limit some of 
our commitments, for example, to provide them technical 
economic trade----
    Mr. Suozzi. Okay. So what is the number one thing we should 
do, is use joint committee to----
    Ambassador Jeffrey. Use the Joint Commission to challenge 
Iran's violations and behavior. That is on the agreement on 
the----
    Mr. Suozzi. What would you say the number one violation is?
    Ambassador Jeffrey. I would say it is the missile program.
    Mr. Suozzi. Okay.
    Mr. Albright. The U.S. should change its policy that it no 
longer accepts the sunsets and then work with its European 
allies to try to create a joint position on how to----
    Mr. Suozzi. Okay. So that wouldn't be enforcing the 
existing deal, that would be to change the deal.
    Mr. Albright. Well, that is right, to change the deal. To 
enforce it, certainly, what the Ambassador said about using the 
Joint Commission to try to give access to military sites.
    Mr. Suozzi. Get access. So you are saying ballistic 
missiles. You are saying military sites.
    Mr. Albright. But in terms of U.S. actions, I think that--
--
    Mr. Suozzi. Toughest sanction we can do without violating 
the agreement.
    Mr. Albright. I think we do need to step up non-nuclear 
sanctions on Iran, and we need to have a broader----
    Mr. Suozzi. So what would the number one sanction we could 
be, non-nuclear sanction we could do?
    Mr. Albright. Well, I am not an expert on sanctions. I look 
to what this committee is working on, and I see many 
possibilities and think that those are very sound things to do.
    Mr. Suozzi. Okay.
    Mr. Albright. Including the ones in the bill to be marked 
up tomorrow.
    Mr. Suozzi. Thank you.
    Mr. Sullivan.
    Mr. Sullivan. I think we should work with the IAEA and with 
our European partners on how to interpret and enforce Section T 
and Section Q of the agreement, which go to these military-
related nuclear--potential military-related nuclear activities 
of Iran.
    And in terms of additional sanctions that we can impose 
that are compliant with the JCPOA, I think that our key two 
areas of focus should be economic pressure around Tehran's 
proxies, meaning trying to disrupt the financial flows and the 
means of payment from Hezbollah to its proxies in Syria----
    Mr. Suozzi. Through the State Department and the Treasury 
Department?
    Mr. Sullivan. Through the Treasury Department chiefly. I 
mean, I believe that our Treasury Department is the gold 
standard when it comes to disrupting illicit financial flows if 
they have the resources and the authorities they need to go do 
it. And I think we should give that to them.
    And then I also believe that we should be thinking about 
how you tighten the screws on the supply chain for ballistic 
missiles.
    Mr. Suozzi. Okay. Thank you, Mr. Chairman.
    Chairman Royce. Thank you very much, Mr. Suozzi.
    And I also want to thank the members of our panel here 
today. We very much appreciate these informative exchanges that 
you have had with the members, including the ability to get 
into some clarification of some issues that I think are very 
helpful.
    I think there is a broad and bipartisan agreement that Iran 
is, in fact, a threat, a deadly threat to the United States and 
to our allies. And I think our intent here is to continue our 
oversight work, but then to drive policy with respect to 
countering this radical regime. And I think that the ideas that 
come out of this hearing can be very helpful in terms of how 
exactly we do that.
    The hearing is adjourned. Thank you again.
    [Whereupon, at 12:51 p.m., the committee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
